                                      National Science Foundation
                                          4201 Wilson Boulevard
                                         Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              March 31, 2005

TO:                Donna Fortunat, Director
                   Division of Contracts and Complex Agreements

                   Mary Santonastasso, Director
                   Division of Institutional and Award Support


FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit


SUBJECT: NSF OIG Audit Report No. OIG-05-1-005, Audit of Raytheon Polar Services
         Company’s Costs Claimed for Fiscal Years 2000 to 2002


In response to your request for audit support of the Raytheon Polar Services Company Fiscal
Year (FY) 2000 to 2003 incurred cost proposal subm ission audit of costs claim ed under contract
no. DACS-OPP-0000373, we have coordinated a series of audits to be performed by the Defense
Contract Audit Agency, Herndon Branch Office. In order to provide you with the audit results,
as they are available to us, we issued interim report no. OIG-04-1-010 in September 2004, which
included a review of indirect costs for the period of FY 2000 to 2002. Attached is the final audit
report for the period FY 2000 to 2002, which include s a review of all costs, both indirect and
direct, claim ed on the NSF contra ct and the response to the audi t report from Raytheon Polar
Services Company.

As summ arized in our attached rep ort and ex plained in the DCAA a udit reports, which are
included as an appendix, RPSC has claim ed approxim ately                  of direct and indirect
costs that are not reimbursable under the NSF c ontract term s. Accordingly, the audit report
questions                of the claimed costs. Specifically, DCAA questions               because
RPSC charged this am ount to NSF as direct costs when those costs should have been classified
as Overhead and General and Adm inistrative costs and recovered through RPSC’s indirect cost
rates, sub ject to contr act ceilings. RPSC has standard procedures for classifying costs as
Overhead or General an d Administrative. Raytheon also claim ed an addition al                  of
Overhead and General and Adm inistrative costs that exc eed the lim itations specif ied in the
contract. When NSF awarded Raytheon the contract, Raytheon agreed to lim it its claim f or
Overhead and General and Adm inistrative costs. Also,                of Fri nge Benefit costs are
questioned because RPSC claim ed budgeted Fringe Be nefit costs instead of lower, actual Fring e
                                                         NSF OIG Audit Report No. OIG-05-1-005


Benefit costs. Finally, an additional              are questioned because RPSC did not have
documentation to show how the costs were allowable under the Federal Acquisition Regulations
(FAR) or how the costs benefited the NSF contract.

We recomm end that NSF disallow the questioned        costs identif ied in this audit report in its
review of RPSC' s claim for final paym ent for the period F Y 2000 to 2002; ensure that RPSC
accurately classifies an d records future Overh ead and General and Adm inistrative costs in
RPCS’s SAP accountin g system , i n accordan ce with its governm ent approved disclosed
accounting practices. We also recommend t       hat NSF ensure that R PSC establish adequate
policies an d procedu res to p reclude char ges exceed ing its Overhead and General and
Administrative ceilings; routinely adjust the am ount of its claim ed costs to reflect actual rather
than budgeted Fringe B enefit costs; and m aintain adequate docum entation for all claim ed costs
in accordance with the FAR. Implementation of these recomm endations will allow USAP co sts
to be reported correctly to NSF and be supported with adequate documentation.

In its response to a draft of this report, RPSC does not accept the DCAA questioned costs. RPSC
contends that the cos ts are in accord ance with instructions received fr om NSF, howe ver, RPSC
was unable to provide the DCAA a uditors with documentation of the NSF instructions. The
DCAA auditors con tacted the NSF Contractin g Of ficer, who stated that no instructions were
provided to RPSC by NSF authorizing any             deviation from RPSC’s standard accounting
practices. Therefore, the DCAA audito            rs did not revise their      audit findings and
recommendations based on RPSC’s response to the draft audit report.

We are providing a copy of this m emorandum to the Director of the Office of Polar Program s.
The responsibility for audit resolu tion rests with the Divis ion of Institu tion and Award Support,
Cost Analysis/Audit Resolution Branch (CAAR). Accordingly, we ask that no action be taken
concerning the report's findings without first consulting with CAAR at (703) 292-8244.

We thank your staff for the assistance that was extended to us dur ing the audit. If you have any
questions about this report, please contact Jannifer Jenkin s at (703)-292-4996 or Kenneth
Stagner at (303) 312-7655.


Attachment
cc: Thomas Cooley, Director, BFA
    Karl Erb, Director, OPP




                                                 2
Audit of Raytheon Polar Services Company’s Costs
Claimed For Fiscal Years 2000 to 2002




                                       March 31, 2005
                                        OIG-05-1-005




                             National Science Foundation
                              Office of Inspector General
                             TABLE OF CONTENTS


  TABLE OF CONTENTS             2
  ACRONYMS        2
  INTRODUCTION                                                                  3
  OBJECTIVES, SCOPE, AND METHODOLOGY                3
  AUDIT RESULTS          4
  APPENDIX 1-Schedule of Audit Results by Fiscal Year                          14
APPENDIX 2- DCAA Audit Reports 15
   DCAA Audit Report No.6161-2000P10100001-RTSC Polar FY 2000 Incurred Cost Audit
   DCAA Audit Report No.6161-2001P10100001-RTSC Polar FY 2001 Incurred Cost Audit
   DCAA Audit Report No.6161-2002P10100001-RTSC Polar FY 2002 Incurred Cost Audit




ACRONYMS

CAS    Cost              Accounting Standards
CASB                Cost Accounting Standards Board
FAR    Federal              Acquisition Regulation
DCAA   Defense               Contract Audit Agency
RTSC                Raytheon Technical Services Company
RPSC                Raytheon Polar Services Company
FY     Fiscal             Year
DCMA                Defense Contract Management Agency
CFAO                Cognizant Federal Agency Official
CFR    Code               Federal Regulations
WBS    Work               Breakdown Structure
ODC    Other              Direct Costs
OFPP                Office of Federal Procurement Policy
OMB                 Office of Management and Budget




                                         2
                                    INTRODUCTION


        The attached Defense Contract A udit Agency (DCAA) Audit Reports dated
February 11, 2005, details the results of it s audit of $      million in costs claim ed for
payment by Raytheon Polar Services Com pany (RPSC) under NSF Contract No. OPP-
0000373 from January 1 , 2000 throu gh December 31, 2002. The contract consists o f a
five-year base period and five option periods for a total of ten years and valued at $1.1
billion. The charges claimed against the contract averages at $         million per year.

       The attached DCAA Audit Reports finalize the interim DCAA Audit Report No.
6161-2004P10160205, previously transmitted to NSF under OIG Audit Report No. 04-1-
010 dated Septem ber 30, 2004, that was limited      to DCAA’s audit of indirect costs
claimed for paym ent by RPSC for FY 2000 to FY 2002. The attached audit report
includes th e resu lts of the in terim review and additionally addres ses the direct co sts
claimed by RPSC from FY 2000 to FY 2002 an d includes RPSC’s response to the audit
findings.

        The United States Antarctic Program has, since 1971 when NSF assum            ed full
responsibility, provided a perm anent presence in Antarctica that oversees U.S. scientific
interests. T oday, the p rincipal goa ls of the United Sta tes A ntarctic Pro gram are to (1)
understand the Antarctic region and its ecosyst ems, (2) understand the effects of the
region on global processes such as clim ate, as well as responses to t hose effects, and (3)
use the region as a platform to study the upper atmosphere and space.

       The Raytheon Polar Services Com pany (R PSC), headquartered in C entennial,
Colorado is a business unit of the Raytheon Technical Serv ices Com pany. Raytheon
Polar Services Company is under contract to the National Science Foundation to provide
science, operations, and maintenance support to sustain year-round research programs.


                  OBJECTIVES, SCOPE, AND METHODOLOGY


       The Federal Acquisition Regulation requires governm ent contractors to subm it
annually a year-end final accounting of the costs incurred by the contractor in performing
the work of the contract. At the request of NSF, we contracted with the Defense Contract
Audit Agency (DCAA) to audit the costs claimed by RPSC in performance of the NSF
contract fro m January 1, 2000 throu gh Decem ber 31, 2002. During this period, RPSC
claimed a total of $363.8 million.

       The purpose of auditing the costs was to determine whether the costs claimed by
RPSC for the period were allowable, allocable, and reasonable in accordance with the
Federal Acquisition Regulations and NSF’s contract terms and conditions.


                                              3
        The DCAA audit was conducted in accordan ce with the Com ptroller General’s
Government Audit Standards and included such tests of accounting records and other
audit procedures necessary to fully address the audit objectives.


                                    AUDIT RESULTS

        The attached Defense Contract A udit Agency (DCAA) Audit Reports dated
February 11, 2005, details the results of it s audit of costs claim ed for paym ent by
Raytheon Polar Services Com pany (RPSC) under NSF Contract No. O PP-0000373 from
January 1, 2000 through December 31, 2002. The purpose of auditing the costs claim ed
was to determ ine the allowability, alloc ability and reas onableness of the costs as
specified in the Federal Acquisition Regulation s and the te rms of the contrac t betw een
NSF and Ra ytheon. The m ajority of RPSC’s costs claimed are acceptable for payment.
However, DCAA identified two RPSC interna l control deficiencies that led to signif icant
questioned costs concerning the proper classi fication of indirect cos ts in the R PSC
accounting system and a lso the m aintenance of accounting source docu ments supporting
costs incurred using a Petty Cash fund in New Zealand.

        DCAA questions $33.4 million that RPSC claimed for payment (see Appendix 1,
page 14, for a Schedule of Questioned Costs by Contract Year). Of this amount, $
              is question ed because RPSC charged th is am ount to NSF as direct costs
when those costs sho       uld have been cl     assified as O verhead an d General and
Administrative costs and recovered through R          PSC’s indirect cost rates, subject to
contract ceilings. RPSC has standard proced ures for class ifying costs as Overhead or
General and Adm inistrative. Overh ead is a cost for the m anagement of direct labor,
subcontractors, and direct m aterials used on the contract. Gene ral and Adm inistrative
costs are costs th at R aytheon incurs for th e general m anagement and benefit of the
corporation as a whole. Examples include Board of Directors compensation, SEC filings,
or the costs of corporate jets. The US Gove rnment requires, under the rules of the Office
of Federal Procurem ent Policy’s Cost Account ing Standards Board, that contractors of
Raytheon’s size dis close deta iled def initions of its Overhead a nd General and
Administrative costs to the government. U pon approval of the dis closed definitions by
the government, Raytheon agrees to only bill th e government for costs accord ing to the
disclosed definitions. However, in the clai ms submitted to NSF f or payment, Raytheon
did not follow its disclosed definitions for      billing indirect costs. Instead, Raytheon
classified these costs as direct costs of contract performance and incorrectly claimed them
for payment.

       Raytheon also claimed an additional $                of Overhead and General and
Administrative costs that exceed the lim itations specified in the contrac t. W hen NSF
awarded Raytheon the contract , Ra ytheon ag reed to lim it its cla im f or Overhead and
General and Adm inistrative costs. The annua l Overhead lim itation is an am ount not to
exceed               of the contract’s d irect labor am ount. The ann ual General and
Administrative limitation is an am ount not to exceed               of a ll the co sts of the
contract                                        . Therefor e, $            is questioned as

                                              4
claims for paym ents that exceed the one percent contract lim itation for Overhead costs
and two percent limitation for General and Administrative costs.

       Also, $                of Fringe Benefit cost s are questioned. RPSC claim ed
budgeted fringe costs instead of lower, audited fringe costs. Although RPSC did not
know what the eventual audited fringe cost am ount would be at the time the claim was
prepared, they are nevertheless only entitled to the audited amount and the difference was
questioned.

       Finally, an addition al $           are qu estioned, principally related to a New
Zealand Petty Cash fund, because RPSC did not have docum entation to show how the
costs were allowable under the FAR or how the costs benefited the NSF contract.

        We recommend that NS F disallow the question ed costs ide ntified in th is audit
report in its review of RPSC' s claim for final payment for the period FY 2000 to 2002;
ensure th at RPSC accurately class ifies a nd records future Overhead and General and
Administrative costs in RPCS’s SAP         accounting system , in accord ance with its
government approved disclosed accounting pr actices; ensure that R PSC establishes
adequate p olicies and procedures to prec lude charges exceeding its Overhead and
General and Administrative ceilings; ensure th at RPSC establishes adequ ate policies and
procedures to routinely adjust the amount of its claimed costs to reflect actual rather than
budgeted fringe benefit costs; and ensure th at RPSC establishes adequate policies and
procedures to m aintain adequate docum entation of all its claim ed costs in acco rdance
with the FAR. Im plementation of these r ecommendations will a llow USAP costs to be
reported correctly to NSF and be supported with adequate documentation.

       In its respo nse to a d raft of this report, RPSC does not accep t the DCAA
questioned costs. RPSC contends that the        costs are in accordance with ins tructions
received from NSF, ho wever, RPSC was unable to provide the DCAA auditors with
documentation of the NSF instructions.        Th e DCAA auditors contacted the NSF
Contracting Officer, who stated th at no inst ructions were provided to RPSC by NSF
authorizing any deviation from RPSC’s stand ard accoun ting practices. Therefore, the
DCAA auditors did not revise their a      udit findings and recomm endations based on
RPSC’s response to the draft audit report.




                                             5
    Summary Explanatory Notes Concerning the Schedule of Questioned Costs


                             Schedule of Questioned Costs

                                       Questioned        Explanatory
                     Description       by Auditors          Note
                  Overhead
                  Claimed Over
                  Contract Allowed                            1
                  Amount

                  General and
                  Administrative
                  Claimed Over
                  Contract Allowed
                  Amount                                      1
                  Facilities                                  2
                  Finance                                     2
                  Human Resources                    2
                  Sign-on Bonus                               2
                  RTSC and
                  Corporate Home
                  Office Allocations                          2
                  Fringe Benefits                             2
                  Direct Costs                                3
                               Total   $33,425,115



1.   Overhead and General and Administrative Costs Claimed Above
Contract Ceiling

         The contract between N SF and RPSC cont ains specific clauses limiting RPSC to
reimbursement of Overhead costs at                      of direct labor and General and
Administrative costs at              of direct costs                                       .
(For an explanation of Overhead and General and Administrative Costs, See Box 1 on
Page 7.) The auditors questioned $              of which $            is Overhead costs and
$3,165,792 is General and Adm inistrative costs that RPSC claim ed for paym ent for the
first three years of contract performance in excess of the contract limits. (See Appendix 2,
DCAA Reports, page 15) The identified questioned am ounts are the sum of the claim ed
payment minus the ceiling amount.

      Additionally, a portion of the costs questi oned relates to the reclas sification of
Overhead and General and Adm inistrative co sts f rom direc t to ind irect as discuss ed in
                                             6
Note 2 below. By classifying Overhead and General and Adm inistrative costs as direct
contract cos ts, RPSC overstates th e direct costs which in turn in correctly resu lts in a
larger total dollar am ount al lowable under the contract te rms. The DCAA auditors
recalculated the allowable total amount of Overhead and General and Adm inistrative
dollars RPSC could be paid using adjusted direct and indirect cost pools that did not
contain misclassified Overhead and General and Administrative costs. All Overhead and
General and Administrative costs RPSC claim ed that are over this revised Overhead and
General and Administrative limit are not eligible for reimbursement and payment by NSF
as shown in the schedule above.


BOX 1: Indirect Rates- Pools and Allocation Bases


Indirect costs should be accumulated by logical (homogeneous) cost groupings (pools), with due
consideration of the reasons for incurring such costs, and allocated to cost objectives in reasonable
proportion to the benefit received (FAR 31.203(c)). The allocation bases used by the contractor for the
allocation of indirect costs must be equitable and consistent with any applicable Cost Accounting
Standard requirements, generally accepted accounting principles, and applicable provisions of the
contract. The allocation base should: (1) be a reasonable measure of the activity of the indirect pool, (2)
be measurable without undue expense, and except for residual G&A expense, (3) fluctuate concurrently
with the activity which is the source of the cost.

DEFINITIONS:
x
x
x
x
x
x
                                                Example


                                                     Indirect                           Indirect
        Indirect Pool          Divided By           Allocation          Equals         Percentage
                                                       Base                               Rate




                                                         7
2.     Indirect Costs Claimed as Direct Costs of Contract Performance In
Violation of RPSC’s Own Disclosed Practices

        In addition to Overhead and
General and Adm inistrative costs
that RPSC claimed in excess of the               BOX 2: The Cost Accounting Standards Board Disclosure
                                                            Statement and Standards
contract terms in Note 1 above, the
auditors ide ntified costs tha t a re               The original CASB was established in 1970 as an agency of Congress in
not correctly id       entified as               accordance with a provision of Pu blic Law 91379 . It was authorized to (1)
                                                 promulgate cost accounting standards designed to achieve uniformity and
Overhead or General and                          consistency in t he c ost ac counting principles f ollowed by d efense
Administrative. In its Cost                      contractors and subcontractors u nder Fe deral c ontracts in ex cess of
Accounting Standard Board                        $100,000 and (2) establish regulations to r equire defense contractors and
                                                 subcontractors, as a c ondition of c ontracting, to disclose in writin g its cost
Disclosure Statem ent (For an                    accounting prac tices, to follow th e d isclosed prac tices c onsistently and to
Explanation of the Cost                          comply wit h duly pro mulgated c ost ac counting s tandards. Th e original
Accounting Standards Board                       CASB promulgated 19 stan dards and associat ed r ules, regula tions and
                                                 interpretations. It went out of existence on Sep tember 30, 19 80. On
Disclosure Statement, See Box 2 on               November 17, 1988, President Reagan signed Public Law 1 00-679 which
Page 8 ) filed with Raytheon’s                   reestablished the CASB. The new CASB is located within the Office of
Cognizant Federal Agency, the                    Federal Proc urement Po licy (OFPP) whic h is u nder th e Offic e of
                                                 Management and Budget (OMB). The CASB consists of five members: t he
Defense Contract Managem           ent           Administrator of OFPP who is the Chairman an d on e mem ber eac h fr om
Agency, RPSC states it will trea t               DoD, GSA, indus try and the priv ate sector (generally expected to b e from
certain iden tified cos ts as eithe r            the accounting profession).
Direct, Overhead, or G eneral and                    Government contractors and subcontractors meeting certain criteria are
Administrative.                                  required, as a c ondition o f c ontracting, to disclose in writin g i ts c ost
                                                 accounting practices. The Dis closure St atement h as been designed to
                                                 provide a n a uthoritative d escription of th e c ontractor's c ost ac counting
        However, the au        ditors            practices to be used on federal contracts for thos e contractors required to
determined RPSC had incorr ectly                 file. The more important objectives of the disclosure requirement include:
claimed Overhead and General and                     (1) es tablishing a clear un derstanding of th e c ost ac counting practices
                                                 the contractor intends to follow,
Administrative costs as Direct                       (2) defining costs charged directly to contracts a nd dis closing t he
costs. The NSF contract contains                 methods used to make such charges, and
limitations on the am      ount of                   (3) delineating the contractor's methods of distinguishing direct
                                                 costs from indirect costs and the basis for allocating indirect costs to
Overhead and General an             d            contracts. A n a dequate Dis closure Sta tement s hould m inimize future
Administrative costs that m ay be                controversies between contracting parties regarding whether the contractor
claimed for paym ent but does not                has consistently followed the disclosed practices.
set lim itations on the amount for          When a CFAO (Cogn izant Federal Agency Official) determines that the
Direct co sts. Therefore, the           contractor's Dis closure Sta tement is ade quate, it d oes not nec essarily
auditors have reclassified the costs indicate that the C FAO is certifying that al l cost accounting practices have
                                        been disclosed. It does indicate that those pr actices disclosed have been
as either Overhead or General and       adequately d escribed and the CFAO c urrently is not aw are o f an y
Administrative as defined by            additional practices that should have been disclosed. The CFAO for RPSC
Raytheon in its Cost Accounting         is the Defe nse Contrac t Ma nagement A gency‘s (DCMA) Div isional
                                        Administrative Contrac ting Off icer for Ray theon Technical Serv ices
Standard Board Disclosure               Company.
Statement. RPSC incorrectly
claimed these costs for p ayment as
direct costs. RPSC is not entitled to paym ent of these costs as direct costs. As discussed
in Note 1 above, RPSC has already clai med $                             of Overhead and General and
Administrative costs that ex ceed the contract ceiling allowe d am ounts. Therefore, the
amounts identified below are not on ly ineligible for paym ent as direct costs, but are also

                                                          8
ineligible for paym ent as Overhead or General and Administrative costs becau   se the
allowable contract ceiling amount has already been exceeded.



                             The remainder of page 9 redacted




                                          9
Page 10 redacted in its entirety




              10
                                     REDACTED




3. Direct Costs

    DCAA questioned $                  of Miscellaneous, Miscellaneous-Petty Cash, Travel,
Training, TC Load Direct Services, and VA Othe r Direct Costs, principally related to a
New Zealan d Petty Cash fund, because RPSC did no t produce adeq uate accoun ting
documentation for the auditors to review de tailing how the costs were allowable under
the FAR or how the costs benefited NSF’s contract. Therefore, the bulk of these costs are
questioned because they fail to m eet th e criteria of FAR 31.201-2( d), which states, “ A
contractor is responsible for accounting for costs appropriately and for maintaining
records, including supporting documentation, adequate to demonstrate that costs claimed
have been incurred, are allocable to the c     ontract, and comply with applicable costs
principles in this subpart and agency supplements . The contracting officer may disallow
all or part of a claimed cost which is inadequately supported. ” (See Appendix 2, D CAA
Reports, page 15) Adequate accounting documentation allows auditors to evaluate a cost
RPSC claim s f or paym ent to determ ine if th e cost is “allowable” u nder th e co ntract
terms, is re asonable in its pric e which can be determined by com paring to catalogs and
prior purchase history, and if the costs were incurred in connection with the performance
of the NSF contract. G overnment contracting “best practices” from the FAR state RPSC

                                           11
should not be reim bursed for costs that RPSC cannot prove are asso ciated with the NSF
contract and are adequately supported. The questioned direct costs are discussed below:

   a. Miscellaneous

       The DCAA auditors questioned $               of miscellaneous costs due to lack of
       adequate supporting docum entation. (See Appendix 2, DC AA Reports, page 15)
       In accordance with the criteria of FA R 31.201-2(d), the DCAA auditors could not
       determine from the docum entation presented by RPSC in support of the
       miscellaneous costs that they were allowable, reasonable, or incurred in support
       of the NSF contract.

   b. Miscellaneous-Petty Cash

       The DCAA auditors questioned $                       of $               claim ed
       miscellaneous-petty cash costs due to lack of adequate supporting documentation.
       The costs were principally incurred in New Zealand. (See Appendix 2, DCAA
       Reports, page 15) In accordance with the criteria of FAR 31.201-2(d), the DCAA
       auditors could not determ ine from th e docum entation presented by RPSC in
       support of the m iscellaneous-petty cash costs that they        were allowable,
       reasonable, or incurred in support of the NSF contract.

   c. Travel

       The DCAA auditors questioned $             of $           claimed travel costs due
       to lack of adequate supporting documentation. (See Appendix 2, DCAA Reports,
       page 15) In accordance with the criteria of FAR 31.201-2(d), the DCAA auditors
       could not determine from the documentation presented by RPSC in support of the
       travel costs that they w ere allowable, reasonable, or incurre d in support of the
       NSF contract.

   d. Training

       The DCAA auditors questioned $               of         claimed training costs due
       to lack of adequate supporting docum entation. For exam ple, RPSC included the
       costs for embroidered baseball caps as a training cost without explanation of how
       baseball caps contributed to the training objectives.    (See Appendix 2, DCAA
       Reports, page 15) In accordance with the criteria of FAR 31.201-2(d), the DCAA
       auditors could not determ ine from th e docum entation presented by RPSC in
       support of the training costs that they were allowable, reasonable, or incurred in
       support of the NSF contract.

   e. TC Load Direct Services and VA Other Direct Costs

       The DCAA auditors questioned $              of $              claim ed TC Load
       Direct Serv ices co sts and VA Other Dire   ct Costs due to lack of adequate

                                           12
supporting docum entation. For exam ple, RPSC included the costs for 550
baseball caps and 825 chef pants without explanation of how baseball caps or chef
pants contributed to the contract. (See Appendix 2, DCAA Reports, page 15) In
accordance with the criteria of FAR 31.201- 2(d), the DCAA auditors could not
determine from the documentation presented by RPSC in support of the costs that
they were allowable, reasonable, or incurred in support of the NSF contract.




                                   13
                                                                            APPENDIX 1


                         Schedule of Audit Results by Fiscal Year

        The schedule below identifies the amounts cl aimed by fisc al year by R PSC in its
Annual Incurred Cost Proposal Submission to NSF; DCAA’s calculation of the allowable
costs incurred using the term s and conditions of the contract, the ru les, regulations, and
laws of the Federal Acquisition Regulati on, the Cost Accounting Standards Board and
RPSC’s accounting policies and proce dures. D CAA questioned                       of
           claimed in RPSC’s certified Annual Incurred Cost Proposal Subm ission. The
DCAA audit reports are presented b y fiscal year, provide extensive detailed explanations
of the improperly claimed costs, and are attached as Appendix 2 to this report.

                         Summary Schedule of Questioned Costs

       Description          FY 2000         FY 2001         FY 2002           Total
   Amount Claimed by
   RPSC in their
   Incurred Cost
   Proposal Submitted
   to NSF
   Auditor’s
   Determination of
   RPSC Cost in
   accordance with
   NSF Contract Terms

   Amount RPSC
   Asked for Payment
   that NSF Should Not
   Pay




                                            14
                                                               APPENDIX 2




            Defense Contract Audit Agency Audit Reports

Audit Report No.6161-2000P10100001-RTSC Polar FY 2000 Incurred Cost Audit
Audit Report No.6161-2001P10100001- RTSC Polar FY 2001 Incurred Cost Audit
Audit Report No.6161-2002P10100001- RTSC Polar FY 2002 Incurred Cost Audit
                        All Dated February 11, 2005


                              Performed By
                          Herndon Branch Office
                             Reston, Virginia




                                   15
              DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 06161-2000P10100001


                                                          February 11, 2005

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton, Associate Inspector General for Audit
4201               Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:       DCAA Herndon Branch Office
                   171 Elden Street, Suite 315
                   Herndon, VA 20170
                       Telephone No.
                       FAX No.
                       E-mail Address

SUBJECT:           RTSC Polar FY 2000 Incurred Cost Audit

REFERENCES:        Prime Contract Number: OPP-0000373
                   Relevant Dates: (See Page 45)

CONTRACTOR: Polar Services
              Raytheon Technical Services Company
              12160 Sunrise Valley Drive
              Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 46

                                                                              Page
CONTENTS:          Subject of Audit                                             1
                   Executive Summary                                            1
                   Scope of Audit                                               2
                   Results of Audit                                             3
                   Contractor Organization and Systems                         31
                   DCAA Personnel and Report Authorization                     44
                   Audit Report Distribution and Restrictions                  46
                   Appendixes                                                  46
Audit Report No. 6161-2000P10100001

                                     SUBJECT OF AUDIT

        We examined the Raytheon Technical Services Company certified final indirect cost rate
proposal and related books and records for the reimbursement of Polar Services FY 2000
incurred costs. The purpose of the examination was to determine allowability of direct and
indirect costs and recommend contracting officer-determined indirect cost rates for FY 2000.
The proposed rates apply to prime contract OPP-0000373. A copy of RTSC Certificate of Final
Indirect Costs for the fiscal year examined is included as Appendix 1 to the report.

       The incurred cost proposals are the responsibility of the contractor. Our responsibility is
to express an opinion based on our examination.


                                  EXECUTIVE SUMMARY

       Our examination of the                proposal disclosed              of questioned costs,
including the following significant items:

           •   Fringe benefit costs
           •   Overhead costs in excess of ceiling
           •   Unallowable costs
           •   G&A costs in excess of ceiling

SIGNIFICANT ISSUES:

1.     The contractor is in noncompliance with CAS 418 and disclosed accounting practices
       (i.e., CAS disclosure statement).

2.     We questioned              related to the application of audited RTSC fringe rates as they
       are applied to the Polar Services fringe benefit bases. The RTSC FY 2000 fringe rates
       have not yet been negotiated so the claimed rates were used to calculate the FY 2000
       fringe indirect costs.

3.     We questioned           of unallowable Other Direct Costs related to transaction testing
       of ODC, Christchurch petty cash, materials, and subcontract costs.

4.     We questioned             of G&A costs in excess of the contract ceiling. The G&A rates
       were recalculated and compared to the claimed rates to determine the amounts in excess
       of the     contract ceiling rate.
Audit Report No. 6161-2000P10100001

5.     We questioned             of overhead costs in excess of the contract ceiling. The
       overhead rates were recalculated and compared to the claimed rates to determine the
       amounts in excess of the 1% contract ceiling rate.

6.     We reclassified             of Corporate and RTSC allocations that were charged direct to
       the contract as Other Direct Cost (ODC).

7.     We reclassified            of ODC and              of labor costs related to locally
       incurred indirect functions such as
                            .


                                      SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance.

       We evaluated the incurred cost proposal using the applicable requirements contained in
the:

       •   Federal Acquisition Regulation, and
       •   Cost Accounting Standards

       Raytheon Polar Services was under the Smith, Davis, and Gaylord (SDG) 1 accounting
system for fiscal years 1999 through 2001. The SDG1 accounting system was converted to SAP
on September 29th 2001. During the last quarter of FY 2001 and FY 2002, Raytheon Polar
Services was on the SAP accounting system. The scope of our examination reflects our
assessment of control risk and the risk of unallowable costs being included in the proposal and

                                                 2
Audit Report No. 6161-2000P10100001

includes tests of compliance with laws and regulations that we believe provide a reasonable basis
for our opinion.

        The SDG1 accounting system was considered adequate for accumulating and reporting
costs under government flexibly priced contracts. The SAP accounting system is considered
inadequate in part based on the identification of several control objective deficiencies. Refer to
the Contractor Organization and Systems section of this report for a further description of the
contractor’s systems. In addition, Raytheon Polar Services uses the Polar Operations Financial
Management System (POFMS) to organize costs from the SAP accounting system and then bill
the costs direct to the National Science Foundation. We have not reviewed POFMS or deemed
the system adequate.

        Our assessment of control risk reflects that we have not specifically tested the
effectiveness of Raytheon Polar Services Systems and related internal controls. The scope of our
examination reflects this assessment and includes tests of compliance with laws and regulations
that we believe provide a reasonable basis for our opinion.


                                     RESULTS OF AUDIT

AUDITOR’S OPINION

        a.      Indirect Rates. In our opinion, the contractor’s proposed indirect rates are not
acceptable as proposed. The examination results and recommendations are presented in Exhibit
B of this report. The contractor did not accept our findings with respect to the questioned and
reclassified costs.

       b.      Direct Costs. In our opinion, the contractor’s claimed direct costs are acceptable
as adjusted by our examination. We questioned and/or reclassified $              of direct costs
proposed under the Polar Services contract. Questioned and/or reclassified direct costs by
element are presented in Exhibit A of this report. Direct costs not questioned are provisionally
approved pending final acceptance. The contractor did not accept our findings with respect to
the questioned and reclassified costs. Final acceptance of amounts proposed under the Polar
Services contract does not take place until performance under the contract is completed and
accepted by the cognizant authorities and the audit responsibilities have been completed.

       c.       Indirect Costs Subject to Penalty. None of the FY 2000 claimed costs were
deemed to be expressly unallowable and therefore subject to penalty.
       A schedule of the claimed and audited overhead and G&A costs in excess of the
contract’s ceiling rates is included in Exhibit C of this report.

                                                 3
Audit Report No. 6161-2000P10100001

       A schedule of the claimed and questioned costs by Work Breakdown Structure (WBS) is
included in Exhibit D of this report.

        We issued memorandums to the contractor detailing our audit exceptions to the major
areas of claimed costs. The contractor provided a response on December 14, 2004 which is
included as Appendix 2 of this report. The contractor disagrees with our audit findings. We
summarized the contractor’s response and provided our comments in Schedule B-1 regarding the
locally incurred costs (Note 1) and Other Direct Costs – RTSC/Corporate allocations (Note 2).
We have also summarized the contractor’s response and provided our comments in Exhibit C
regarding costs in excess of the indirect rate ceilings (Note 2).




                                              4
   Audit Report No. 6161-2000                                       EXHIBIT A

                                         Polar Services
                              Raytheon Technical Services Company

               STATEMENT OF CONTRACTOR’S CLAIMED DIRECT COSTS
                               AND RESULTS OF AUDIT
                         Polar Services Contract No. OPP-0000373
                     Period January 1, 2000 through December 31, 2000


Element of Cost           Claimed              Questioned            Unresolved             Ref.

Direct Labor                                                                           Schedule A-1
Material                                                                               Schedule A-2
Subcontracts
Other Direct Costs                                                                     Schedule A-3

Totals


           The claimed cost column represents amounts included in the contractor’s certified
   indirect cost submission for the Polar Services contract. This column does not necessarily
   represent amounts that the contractor plans to claim for reimbursement under the contract.

          Minor differences may exist in the supporting schedules due to rounding.




                                                  5
Audit Report No. 6161-2000                                          SCHEDULE A-1

             CONTRACTOR’S CLAIMED FY 2000 DIRECT LABOR COSTS
                         AND RESULTS OF AUDIT

     Element of Cost             Claimed          Questioned        Unresolved            Ref.

     Direct Labor                                                                       Note 1

EXPLANATORY NOTE:

1.      Direct Labor

        a. Summ        ary of Conclusions:

               We reclassified             of the contractor’s claimed direct labor to the overhead
        pool based on its disclosed accounting practices.

        b.     Basis of Contractor’s Costs:

               The contractor’s claimed labor costs are based on actual labor costs incurred as
        represented in its accounting books and records.

        c. Audit       Evaluation:

                The contractor recorded             of direct labor for those labor costs associated
        with the indirect functions of
        using the General Management WBS.




        Furthermore, the costs should be included in an indirect cost pool because the Polar
        Services contract has multiple final cost objectives (WBS). Many of these WBS are
        restricted and require the contractor to segregate, accumulate, and report costs by WBS.
        As a result of these circumstances, the contractor’s normal accounting practice is to treat
        costs related to these indirect functions as an indirect cost.

                In view of the above, we removed the claimed direct labor costs associated with
        these indirect functions from the overhead direct labor base and reclassified the costs to


                                                  6
Audit Report No. 6161-2000                                       SCHEDULE A-1

      the overhead pool consistent with the contractor’s normal accounting practices. See
      Schedule B-1, Note 1 of this report for further discussion on our reclassification.

              The reclassified direct labor costs associated with the various indirect functions
      are as follows:

             WBS                  Description                             Amount




              Total




                                                7
 Audit Report No. 6161-2000                                            SCHEDULE A-2

                CONTRACTOR’S CLAIMED FY 2002 MATERIAL COSTS
                          AND RESULTS OF AUDIT
     Element of Cost         Claimed    Questioned  Unresolved                          Ref.


     TC Non-Value Added ODC                                                            Note 1

     Totals

 EXPLANATORY NOTE:

1.       TC Non Value Added ODC Costs

         a.     Summary of Conclusions:

                We questioned              of TC Non-Value Added ODC costs associated with
         unallowable travel and related costs.

         b.     Basis of Contractor’s Costs:

                 The contractor’s claimed TC Non-Value Added ODC are related to material costs
         incurred in the SDG1 accounting system and transferred into the SAP accounting system
         under the TC Non-Value Added ODC cost element. These costs are based on actual
         costs incurred as represented in the contractor’s accounting books and records.

         c. Audit     Evaluation:

                We have reviewed the material costs for fiscal year 2000 and questioned the
         following amounts:

                      Misclassified ODC Costs                            (1)
                      5KV Cable Assembly                                 (2)

                      Total

                 (1) A stress management training course was misclassified and charged to the
         Other Materials account. The vendor of this training course was                      ,
         totaling $310, purchase order RM 70142-01, dated 4/24/00. This transaction should have
         been charged to training. A TR-07-S+ course was misclassified and charged to the Other
         Materials account. The vendor was              totaling       dated 8/22/00. This

                                                8
Audit Report No. 6161-2000                                           SCHEDULE A-2

      transaction should have been charged to training. The total amount of        was
      projected to the universe resulting in questioned costs of

               (2) A 5KV Cable assembly was purchased and charged to the Other Materials
      account. The original check was voided and additional supporting documentation for this
      payment was not provided by the contractor. The vendor,                      , invoiced a
      total of            on invoice number       , dated 11/30/2000. We have questioned this
      transaction due to the lack of adequate supporting documentation as required in FAR
      31.201-2(d).




                                              9
Audit Report No. 6161-2000                                        SCHEDULE A-3

               CONTRACTOR’S CLAIMED OTHER DIRECT COSTS (ODC)
                           AND RESULTS OF AUDIT

      Element of Cost                                 Claimed       Questioned       Ref.

      TC Load Direct Services/VA ODC                                               Note 1
      Miscellaneous-Petty Cash                                                     Note 2
      TC Load Travel                                                               Note 3
      Other ODC

      Totals

EXPLANATORY NOTES:

1.     TC Load Direct Services and Value-Added ODC

 a.            Summary of Conclusions:

               We reclassified              of Corporate and RTSC allocations to the overhead
       pool which the contractor had treated as ODC. We also reclassified                 of ODC
       to the overhead pool related to locally incurred indirect functions which the contractor
       had treated as ODC. Lastly, we have questioned other ODC because the contractor was
       unable to provide adequate documentation to support its claimed costs.

       b.      Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.




                                               10
Audit Report No. 6161-2000                                         SCHEDULE A-3

c.           Audit Evaluation:

            The results of our audit evaluation of TC Load Direct Services and Value-Added
      ODC are summarized as follows:

                Description                                      Amount

                Reclassified Corporate/RTSC allocations                          (1)
                Reclassified indirect functions                                  (2)
                Inadequate supporting documentation                              (3)
                Unreasonable costs                                               (4)

                Total

              (1) Corporate/RTSC allocations are treated as an overhead cost based on the
      contractor’s disclosed accounting practices. The contractor’s accounting system treated
      the costs as indirect, however the costs were subsequently reclassified as a direct charge
      to the Polar Services contract based on adjusting journal entries. We reclassified the FY
      2000 Corporate allocations of              and FY 2000 RTSC allocations of
      from the Miscellaneous ODC account to the overhead pool so these costs are treated
      consistently based on the contractor’s disclosed accounting practices. Our basis for this
      reclassification is further discussed in Schedule B-1, Note 2 of this report.

               (2) We reclassified of                  of ODC related to indirect support functions
      to the contractor’s overhead pool based on its disclosed accounting practices. Our basis
      for this reclassification is further discussed in Schedule B-1, Note 1 of this report.




                                               11
Audit Report No. 6161-2000                                     SCHEDULE A-3

                    The ODC that we have reclassified to overhead are summarized as follows:

               WBS                  WBS Description                  ODC




               Total

              (3) We have questioned the following costs because the contractor did not
       provide adequate supporting documentation:

     Description           Month       JV No. Purpose                      Questioned

     Direct Miscellaneous May-00       81      Employee Salaries
     Direct Miscellaneous June-00      139     Employee Salaries

     Total

              (4) We have questioned costs associated with Chef Pants and Souvenir Baseball
       Caps as unreasonable costs based on FAR 31.201-3:

      Description           Month       Purpose                         Questioned

      Direct Miscellaneous Nov-00       825 Pr Chef Pants
      Direct Miscellaneous June-00      550 Souvenir Baseball Caps

      Total




2.     Miscellaneous – Petty Cash
                                              12
Audit Report No. 6161-2000                                         SCHEDULE A-3


      a.     Summary of Conclusions:

              We performed a statistical sample of journal entries and questioned 28.58% of the
      total 2000 petty cash of             which was processed through the Miscellaneous cost
      account. The total questioned costs for FY 2000 is             .

      b.     Basis of Contractor’s Cost:

              The process for the Christchurch New Zealand petty cash includes maintaining all
      documentation on site in New Zealand as the costs are incurred. As needed,
      replenishment requests are forwarded to the Colorado office. Replenishment is then
      granted on an as needed basis. The replenishments are originally coded to the
      Miscellaneous account on a specific WBS. A reclassification of those costs occurs when
      journal entries are sent to Colorado for recording costs to cost objectives. Included in the
      journal entry are the New Zealand dollars incurred and the applicable exchange rates.
      The original ODC amounts recorded are not only ODC costs but all costs including
      subcontract, material and labor costs. Since these elements are recorded through the
      Miscellaneous account they became part of the population for petty cash related ODC
      and were tested accordingly.

      c. Audit      Evaluation:

              A high volume of petty cash transactions prompted the contractor to request that
      we use two (2) complete months of petty cash transactions as our statistical sample in an
      effort to facilitate the transaction testing process. As a result, it was agreed to by the
      contractor, that the 2-month sample would be projected to a universe of Christchurch
      petty cash transactions for each of the fiscal years 2000 through 2002. On that basis, two
      (2) journal entries of petty cash transactions representing the months of April 2002 and
      November 2002 were selected for review. The journal entries were received from the
      contractor and were reviewed 100%. We projected the sample results to the 2000
      universe of                resulting in questioned costs of            . Our sample selection
      and projection technique is further discussed in Audit Report No. 6161-2002P10100001,
      Polar FY 2002 Incurred Cost Audit.




3.    TC Load Travel

                                               13
Audit Report No. 6161-2000                                       SCHEDULE A-3

 a.          Summary of Conclusions:

             We questioned          related to direct travel costs because the contractor was
      unable to provide adequate documentation to support the claimed costs.
      b.     Basis of Contractor’s Cost:

              The contractor’s transition load travel costs represent amounts that were incurred
      on the contractor’s SDG1 accounting system and transferred into the SAP accounting
      system. These costs represent nine (9) months of incurred travel costs for fiscal year
      2000.

      c. Audit       Evaluation:

             We reviewed the contractor’s FY 2000 travel transactions from the SDG1
      accounting system detail as provided by the contractor. The following transactions were
      questioned because the contractor did not provide adequate documentation to support the
      claimed costs as required in FAR 31.201-2(d).

             Month           JV No. Purpose                           Questioned

             Sept-00        none      Employee travel/lodging
             August-00      none      Employee travel/meals

             Total                                                   $




                                              14
Audit Report No. 6161-2000                              EXHIBIT B

                                   Polar Services
                        Raytheon Technical Services Company

   STATEMENT OF CONTRACTOR’S CLAIMED INDIRECT COSTS AND RATES
                         AND RESULTS OF AUDIT
                   Polar Services Contract No. OPP-0000373
               Period January 1, 2000 through December 31, 2000


                      Claimed         Questioned         Audited        Ref.
Overhead
Pool                                                                Schedule B-1
Base
Rate

Fringe Benefits
Pool                                                                Schedule B-2
Base                                         0

G&A
Pool                                                                Schedule B-3
Base
Rate




                                        15
Audit Report No. 6161-2000                                         SCHEDULE B-1

              CONTRACTOR’S CLAIMED OVERHEAD POOL AND BASE COSTS
                             AND RESULTS OF AUDIT

                                               Amount              Amount              Ref.
     Claimed Overhead Pool

     Reclassified Costs:
     Locally Incurred Costs                                                           Note 1
     Corporate & RTSC Allocations                                                     Note 2
     Total Questioned Pool Costs

     Revised Pool

     Claimed Direct Labor Base

     Reclassified Costs:
     Locally Incurred Labor Costs                                                     Note 1
     Total Questioned Base Costs

     Revised Overhead Base

EXPLANATORY NOTES:

1.       Locally Incurred Costs

         a.      Summary of Conclusions:

                 Our examination of locally incurred overhead costs revealed that the contractor
         did not always classify indirect functions and associated costs in accordance with its
         disclosed accounting practices. Instead, the contractor recorded all local support
         (indirect) functions to the Polar Services contract as direct costs. As a result, we
         reclassified Miscellaneous TC Load Direct Services/VA ODC of                     and labor
         costs of            to the local overhead pool. These costs represent a significant amount
         that was booked direct to the contract using the General management WBS                    .

         b.      Basis of Contractor’s Cost:

                 The contractor’s claimed costs are based on actual costs incurred as represented in
         its accounting books and records.
c.               Audit Evaluation:
                                                 16
Audit Report No. 6161-2000                                      SCHEDULE B-1


              The overhead pool was reviewed based on costs incurred and submitted in the
      contractor’s incurred cost submission. Due to immateriality of the costs actually included
      in the overhead pool, no substantive testing was considered necessary or performed. We
      did note that the overhead pool costs appeared to be insignificant for a contract the size of
      the Polar Services contract. As a result, the contract and the original proposal were
      reviewed to determine contract requirements for support functions during the term of the
      contract. The contractor’s disclosure statement (disclosed accounting practices) was also
      reviewed for the treatment of costs regarding the functions as described. According to
      the contract, the contractor is required to follow its disclosed accounting practices. NSF
      RFP No. OPP98001, Amendment No. 8 required the contractor’s cost or pricing data to
      follow its Cost Accounting Standards Board Disclosure Statement (Form CASB DS-1).
      We confirmed that the contractor was recording all local support functions to the Polar
      Services contract as direct costs. The WBS listing was then reviewed to determine the
      various support functions that were indirect to the program. The significant support
      functions reviewed that were indirect to the program were
                                         .

              Our reclassification of labor costs to the local overhead pool is discussed in
      further detail in Schedule A-1, Note 1of this report. Our reclassification of the TC Load
      Direct Services and Value Added ODC is discussed in further detail in Schedule A-3,
      Note 1 of this report.

 d.          Contractor’s Reaction:

              The contractor does not agree that the locally incurred costs should be reclassified
      or disallowed. First, the contractor contends the parties expressly agreed that all locally
      incurred costs at Polar would be charged as direct costs to the General Management WBS
      and that they would not be subject to the overhead ceiling rate. Second, the Polar
      contract, not the WBS, is the final cost objective based on the CASB definition of a final
      cost objective. Individual tasks and CLINs under a contract do not necessarily represent
      final cost objectives nor is a contractor required to treat them as such for cost accounting
      purposes. Third, the contractor asserts that it is entitled to decide what a final
      accumulation point is in the accounting system. In the RTSC accumulation system, the
      Polar contract is the final cost objective according to the contractor.

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.



                                               17
Audit Report No. 6161-2000                                     SCHEDULE B-1

e.           Auditor’s Comments:

              CAS 418-40(a) requires Polar Services to have a written statement of accounting
      policies and practices for classifying costs as direct and indirect and to apply those
      policies and practices consistently.




              The Polar RFP required the contractor’s cost or pricing data to follow its
      disclosed cost accounting practices (CAS disclosure statement). As a result, the customer
      did not require any costs normally classified as indirect (e.g., locally incurred overhead,
      Raytheon allocations or RTSC allocations) to be bid and accumulated as direct costs to
      the contract. The Polar RFP and its requirement for the contractor to follow disclosed
      cost accounting practices is consistent with the intent of the CASB when it published
      comments regarding this issue in Part II, Preambles to the Related Rules and Regulations
      Published by the Cost Accounting Standards Board, Preambles to Part 331, Contract
      Coverage, Comment No. 11, Additional requirements by agencies, states that:

                    “…concern was expressed that Federal agencies might require the
             submission of cost proposals in ways inconsistent with the cost accounting
             practices of some or all of the potential offerors. The Board recognizes that this
             has happened in the past, but it notes that Board rules, regulations, and Cost
             Accounting Standards are to be used by relevant Federal agencies as well as by
             contractors and subcontractors, and it believes that henceforth requests for
             proposals must be fully consistent with such rules, regulations, and standards,
             although of course the Federal agency may ask for supplementary information to
             accompany proposals if this is needed to meet the agency’s requirements.”

              In addition, Polar Services notified the NSF Contracting Officer in a letter dated
      April 16, 2001 that it has liquidated advance payments in a manner inconsistent with its
      disclosure statement. Specifically, Polar Services classified some normally indirect
      expenses (
                                         as direct expenses. As a result, the NSF Contracting
      Officer requested the NSF OIG to review the basis for these classifications by Polar
      Services and advise if the proposed allocations are consistent with applicable RTSC
      disclosure statement(s) and otherwise represent allowable, allocable, and reasonable costs
      of contract performance.

                                              18
Audit Report No. 6161-2000                                      SCHEDULE B-1

              Lastly, we believe that the Polar Services contract has multiple final cost
      objectives in the form of Work Breakdown Structures (WBS) based on the following:

              (1) The contract has determined that the WBS is the final cost objective. There
      is a number of Restricted WBS such as SPSM, SPSE, JSOC, IS Infrastructure, MTRS,
      CTBT, ANSMET II, and IceCube that require the contractor to separately accumulate,
      report, and bill costs to NSF. For each WBS, the contractor even tracks and reports by:
      obligated, advances, expenditures, available funds, and unliquidated advances in its
      financial reports to NSF.

               (2) The contractor has determined that the WBS is the final cost objective and
      one of the final accumulation points. The CASB definition of a final cost objective
      states, “Final cost objective means a cost objective which has allocated to it both direct
      and indirect costs, and in the contractor’s accumulation system, is one of the final
      accumulation points.” The contractor’s accounting system segregates, accumulates, and
      bills costs by WBS which includes both direct and indirect costs as required by the CASB
      definition of a final cost objective. Also, the contractor seems to imply that a contract is
      always the final cost objective. We disagree because contracts may include/require task
      orders/delivery orders which will become the final cost objectives. In this case, a
      contractor typically segregates and accumulates its costs by task and/or delivery order
      and separately closes out each of these contracting actions instead of the contract as a
      whole. In addition, these task and/or delivery orders have their own ceiling amounts and
      the contractor is responsible for complying with those separate ceilings instead of any
      overall contract ceiling amount.

              (3) The contractor applies a              rate to the base costs of each WBS for
      reporting and billing costs to NSF. As a result, the WBS has to be the final cost objective
      because CAS 410 requires that G&A expenses can only be allocated to final cost
      objectives. According to 48 CFR 9904.410-40(a), the basic requirement of CAS 410 is
      that G&A expenses be grouped into a separate indirect cost pool and allocated only to
      final cost objectives.

             In summary, we believe the contractor is in noncompliance with CAS 418-40(a)
      and has not followed its disclosed accounting practices which is a requirement of that
      standard.


2.    Corporate and RTSC Allocations

      a.     Summary of Conclusions:

                                              19
Audit Report No. 6161-2000P10100001                                         SCHEDULE B-1

      a.     Summary of Conclusions:

             Our examination of the overhead pool for allocated costs from RTSC and
      Raytheon Corporate resulted in an increase in the overhead pool by          with a
      proportionate decrease in ODC.




      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c. Audit      Evaluation:

             Polar Services demonstrated, through a prepared schedule and Annual Program
      Plan Cost Structure, the methodology used when recording allocated costs from
      Raytheon Corporate and Raytheon Technical Services (RTSC). Understanding the
      contractor’s methodology and classification of costs direct vs. indirect is important since
      the contract includes a          ceiling rate.

             It was determined that Polar Services was recording allocations direct to the
      contract using the General Management WBS.




              Our reclassification of the RTSC and Corporate allocations to the local overhead
      pool is discussed in further detail in Schedule A-3, Note 1of this report. The Fiscal Year
      2000 RTSC and Corporate allocations that we reclassified to the local overhead pool are
      shown in the tables below:



                              This table redacted in its entirety


                                               20
Audit Report No. 6161-2000        SCHEDULE B-1




                             21
Audit Report No. 6161-2000                                        SCHEDULE B-1


                              This table redacted in its entirety




      d. Contractor’s      Response:

              The contractor asserts that the Polar business unit was not organized as a separate,
      stand-alone operation. As a result, Polar has in effect purchased certain systems and
      support services from RTSC and Raytheon (Corporate) and charged the costs for these
      systems and services to the Polar contract in the form of cost allocations. In addition,
      many types of cost that RTSC expected to incur locally at Polar and charge direct to the
      contract have instead been charged as flow-down costs from RTSC and Raytheon. If
      those allocated costs are treated as overhead, they cause the actual overhead costs to
      exceed the capped rates in a way that we do not believe either party anticipated or
      intended.

      e. Auditor’s      Comments:

             The contractor judgmentally selected certain RTSC and Corporate allocations
      (flow-down costs) to charge direct to the Polar contract while others remained indirect.


                                             We reclassified to the overhead pool all flow down
      costs to the Polar business unit that the contractor elected to charge direct to the contract.
      We are not aware of any other RTSC business units that judgmentally select certain

                                                22
Audit Report No. 6161-2000                                     SCHEDULE B-1

      allocations and charge the associated costs direct to the contract. See Note 1 above for
      additional auditor comments on the contractor’s response to our audit findings.




                                              23
Audit Report No. 6161-2000                                                SCHEDULE B-2

                  CONTRACTOR’S CLAIMED FRINGE BENEFIT COSTS
                           AND RESULTS OF AUDIT

                                     Fiscal Year 2000 Fringe Benefits
           Union     Audited                                            Claimed   Questioned
           Code       Rate        Labor Base     Audited Fringe          Fringe     Costs
                                                                                   (Note 1)
             74
            RTA
            RTD
            RTK
            RTL
            RTP
            RTJ
            R01
           Totals




EXPLANATORY NOTE:

1.    Fringe Benefits

      a.     Summary of Conclusions:

             Questioned costs results from application of recommended/audited rates to the
      applicable fringe codes for Polar Services.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c. Audit      Evaluation:

              RTSC fringe costs are claimed in total in the RTSC 2000 Incurred Cost
      Submission. In an effort to confirm the total claimed, the labor costs have been
      segregated based on the applicable fringe bases. The RTSC audited fringe rates by union
      code for fiscal year 2000 were then applied to the associated labor bases and totaled for a
      total audited fringe burden of          . The total applied fringe was then compared to



                                                   24
Audit Report No. 6161-2000                                    SCHEDULE B-2

      the claimed fringe from the contractor’s incurred cost submissions for the same time
      frame of            resulting in an over application of claimed fringe costs of        .




                                             25
Audit Report No. 6161-2000                                         SCHEDULE B-3

                  CONTRACTOR’S CLAIMED G&A POOL/BASE COSTS
                           AND RESULTS OF AUDIT

Description                                             Amount                      Ref.
                                                        (Note 1)
 Fringe Benefits in Excess of Claimed Rates                                    Schedule B-2

 G&A Base Adjustment

EXPLANATORY NOTE:

1.     G&A Expense

       a.     Summary of Conclusions:

              We do not take any exception to the contractor’s claimed G&A pool. However,
       we adjusted the contractor’s claimed G&A base by             .

       b.     Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.

       c. Audit      Evaluation:

               We did not perform any transaction testing on the claimed G&A pool because of
       the immaterial costs included in that pool and the        ceiling rate included in the
       contract. However, we adjusted the contractor’s claimed G&A base in the amount of
                 as a result of our audit findings related to fringe benefits. All other questioned
       costs are subject to G&A burdening regardless of their allowability.




                                                26
Audit Report No. 6161-2000                                          EXHIBIT C

                                    Polar Services
                         Raytheon Technical Services Company

     COMPUTATION OF TOTAL COSTS IN EXCESS OF CONTRACT CEILINGS
                   Polar Services Contract No. OPP-0000373
               Period January 1, 2000 through December 31, 2000




                          These tables redacted in their entirety




EXPLANATORY NOTES:

1.    Overhead and G&A Costs in Excess of Ceiling – Without Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead and G&A costs in excess of the ceiling rates. These
      amounts represent the costs in excess of the ceiling rates based on the contractor’s
      claimed indirect rates and allocation bases, i.e., without any audit adjustments.



      b.     Basis of Contractor’s Cost:
                                            27
Audit Report No. 6161-2000                                               EXHIBIT C


               The contractor’s claimed costs and indirect rates are based on its certified incurred
        cost submission.

        c. Audit      Evaluation:

                We computed the overhead and G&A costs in excess of the ceiling rates but
        without including any audit adjustments. These amounts represent the costs in excess of
        the ceiling rates based on the contractor’s claimed indirect rates and allocation bases. Any
        comparison to billed costs should be performed after final negotiations and resolution
        with the contractor.

2.      Overhead and G&A Costs in Excess of Ceiling – With Audit Adjustments

        a.      Summary of Conclusions:

               We computed the overhead and G&A costs in excess of the ceiling rates. These
        amounts represent the costs in excess of the ceiling rates that includes the audit
        adjustments discussed in this report.

        b.      Basis of Contractor’s Cost:

               The contractor’s claimed costs and indirect rates are based on its certified incurred
        cost submission.

        c. Audit      Evaluation:

                We computed the overhead and G&A costs in excess of the ceiling rates that
        reflects our audit adjustments. These amounts represent the costs in excess of the ceiling
        rates based on incorporating the audit adjustments made to the contractor’s indirect cost
        pools and allocation bases. Any comparison to billed costs should be performed after
        final negotiations and resolution with the contractor.

        d. Contractor’s      Response:

                 The contractor states that the amounts identified by DCAA as claimed over
     ceiling have not been claimed nor recovered under the contract. The costs are included in the
     actual incurred cost submission and they are charged to the contract because they are actual
     costs and they must be recorded on the books, but we are aware of no evidence that the costs
     have ever been included in any billing or otherwise claimed by Polar.

                                                28
Audit Report No. 6161-2000                                          EXHIBIT C

      e. Auditor’s     Comments:

              We disagree that the contractor has not billed nor recovered these over ceiling
      amounts under the contract. The contractor billed and recovered these amounts as direct
      costs as discussed in the exhibits to this report. We reclassified these direct costs
                                                                          to overhead and
      computed the amounts that exceed the contract’s ceiling rates.




                                             29
Audit Report No. 6161-2000                                                  EXHIBIT D

                                       Polar Services
                            Raytheon Technical Services Company

            COMPUTATION OF CLAIMED AND QUESTIONED COSTS BY
                       WORK BREAKDOWN STRUCTURE
                      Polar Services Contract No. OPP-0000373
                  Period January 1, 2002 through December 31, 2002


   WBS                 Description                     Claimed         Questioned   Difference
                                                                        (Note 1)
                                 This table redacted in its entirety




Note 1: The significant portion of questioned/reclassified costs was for the indirect functions
and Corporate/RTSC allocations related to the General Management WBS which we have
questioned/reclassified specifically on those WBS structures. The balance of the questioned
costs was allocated to all WBS based on costs incurred.




                                                  30
Audit Report No. 6161-2000

                   CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization

       On December 18, 1997, Raytheon announced the completion of its merger with the
Hughes Corporation and the formation of Raytheon Systems Company, a subsidiary of Raytheon
Company. Raytheon Systems Company consisted of 5 segments, including Training and
Services (T&S). Raytheon T&S segment, established January 1, 1999, combined the following
legacy organizations: Rayserv (legacy Raytheon) and Hughes Technical Services Company,
Raytheon Air Warfare Center, Raytheon STX, Raytheon Electronic Technologies Inc., Raytheon
Data Systems, and Raytheon Training Inc., Training Operations and Commercial Training
Divisions.

        On October 18, 1999, Raytheon’s T&S segment reorganized, transforming four (4)
divisions into thirteen (13) separate business units. This new organization, renamed Raytheon
Technical Services Company (RTSC), became fully operational January 3, 2000. In the new
structure, the Raytheon Systems Company (RSC) was eliminated. Accordingly, RTSC and other
Raytheon Company segments will report directly to the Corporate Executive Office. RTSC now
has its headquarters in Reston, VA,                                                           :




         The remainder of this page and all of pages 32 through 43 have been redacted in
                                      their entirety.




                                              31
Audit Report No. 06161-20021P10100001
                                                                                       Appendix 1
DCAA PERSONNEL

Telephone                                                                          No.
Primary contact(s) regarding this audit:



Other contact(s) regarding this audit report:
                       Branch Manager


                                                                             FAX No.
         Herndon Branch Office


                                                                       E-mail Address
         Herndon Branch Office

General information on audit matters is available at http://www.dcaa.mil/.

                                      RELEVANT DATES

NSF OIG Request dated July 31, 2003

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/


                                                           Branch Manager
                                                           DCAA Herndon Branch Office




                                                44
Audit Report No. 06161-20021P10100001
                                                                        Appendix 1
                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION

 E-m                                                              ail Address
National Science Foundation                                  Kstagner@nsf.gov
Ms. Deborah Cureton, Associate Inspector General for Audit
4201 Wilson Boulevard                                         Telephone No.
Arlington, VA 22230                                           (303) 312-7655

Polar Services
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191
(Copy furnished thru Contracting Officer)

RESTRICTIONS

                                        REDACTED




                                             45
Audit Report No. 06161-20021P10100001
                                                                 Appendix 1




                            APPENDIX 1

                             Fiscal Years 1999 and 2000
                          Certificates of Final Indirect Costs




                                          46
                       CERTIFICATE OF FINAL rHOrRECT CO STS


Thilclt '" c:wtify _     1 ~ _ _ "'" PfClJlDUlIo .. labI'''''   r.w ftIirad <:>$I
tiltH and   to !he best   ct...,   kno , Aa~   Ind bllliet.

1.     M _ " in<;UIed in INs PfCIJIDUI ~ T~ SeMon
       Company 1999 Overhead Pmponl' ~a<I 31. October 20(0) 10 establish
       ttn.I r.difflct raleS 101 !abo!~. G&A •• nd Iringe for fiscal year
       1999. lOre _ _ in ~1onCe wrlh !lle coal pr'.~ " I 111. Feoerar
       Ae<luil~Oon ROoQIAaticn (FAR) and .. ~tI .pplicable to !lie
       ~ to wIIicn lhfllinal lndirecl COJI re1t1 will .ppIy; . nd


2.     ThiI propcooal " ' - no! incIu<IIO ""Y COlli wI11c/'1 .re exprelo/y 1 1 _
       uMer .[lplicl.bIe COIl ~ 01 "'" FAR Ctlts tuppieme •• ts.




Dale ct Execution:      _.";;""/,-,d~!r:""",,,--_ ______
                          CERTIFICATE OF FINAlltIDIRECT COSTS



    ill 10 certify lhet I .... ve reYiewed IIlIl propoaal \0 establish m.t indirect coot
T~iII
..In and \0 !he best 01 my ~ atId beIieI:

1.      All costs Induded in!hil ~('R8ytMoo Todlnical ServIcM Campa")' 2000
        0vettINd p~ dated 30. June 20(1) \0 etlabtilh ronal nditecl rain lor labo<
        .......-. GU... and I'rIn9-Ior ~ j"N< 2000 • . - _ _ in ~~ Ih<t
        oost p(,o ICi!>leI oflhe F _ Acqo.IiliIion ROIQIMtlon (FAR) _ Ita OUpploo,"'oII
        lOWIlcable 1C Ihe ""'b ...... \0 wfIk:!, !he fIrwol Fodirect 0D0t _ wiI apply; and

2.      Thll ~ _              not indude any coots wfIk:!, .... 8"P"''''y una_bioi und ...
        lOWIicabie o;QIOt pnr.:;pIft ot !he FAA Of ita ouppleme,q.




Oate of Exarution: _C.3b=c.::X"o:
                                ~:..:P""    _______ _
              DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 06161-2001P10100001


                                                          February 11, 2005

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton, Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:       DCAA Herndon Branch Office
                   171 Elden Street, Suite 315
                   Herndon, VA 20170
                       Telephone No.
                       FAX No.
                       E-mail Address

SUBJECT:           RTSC Polar FY 2001 Incurred Cost Audit

REFERENCES:        Prime Contract Number: OPP-0000373
                   Relevant Dates: (See Page 43)

CONTRACTOR: Polar Services
               Raytheon Technical Services Company
               12160 Sunrise Valley Drive
               Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 44

                                                                              Page
CONTENTS:          Subject of Audit                                             1
                   Executive Summary                                            1
                   Scope of Audit                                              2
                   Results of Audit                                            4
                   Contractor Organization and Systems                         30
                   DCAA Personnel and Report Authorization                     43
                   Audit Report Distribution and Restrictions                  44
                   Appendixes                                                  45
Audit Report No. 6161-2001P10100001

                                     SUBJECT OF AUDIT

        We examined the Raytheon Technical Services Company certified final indirect cost rate
proposal and related books and records for the reimbursement of Polar Services FY 2001
incurred costs. The purpose of the examination was to determine allowability of direct and
indirect costs and recommend contracting officer-determined indirect cost rates for FY 2001.
The proposed rates apply to prime contract OPP-0000373. A copy of RTSC Certificate of Final
Indirect Costs for the fiscal year examined is included as Appendix 1 to the report.

       The incurred cost proposals are the responsibility of the contractor. Our responsibility is
to express an opinion based on our examination.


                                  EXECUTIVE SUMMARY

        Our examination of the          million proposal disclosed                of questioned
costs, including the following significant items:

           •   Fringe benefit costs
           •   Overhead costs in excess of ceiling
           •   Unallowable costs
           •   G&A costs in excess of ceiling

SIGNIFICANT ISSUES:

1.     The contractor is in noncompliance with CAS 418 and disclosed accounting practices
       (i.e., CAS disclosure statement).

2.     We questioned             related to the application of audited RTSC fringe rates as they
       are applied to the Polar Services fringe benefit bases. The RTSC FY 2001 fringe rates
       have not yet been negotiated so the claimed rates were used to calculate the FY 2001
       fringe indirect costs.

3.     We questioned              of unallowable Other Direct Costs related to transaction
       testing of ODC, Christchurch petty cash, materials, and subcontract costs.

4.     We questioned                 of G&A costs in excess of the contract ceiling. The G&A
       rates were recalculated and compared to the claimed rates to determine the amounts in
       excess of the    contract ceiling rate.
Audit Report No. 6161-2001P10100001

5.     We questioned               of overhead costs in excess of the contract ceiling rate. The
       overhead rates were recalculated and compared to the claimed rates to determine the
       amounts in excess of the    contract ceiling rate.

6.     We reclassified               of Corporate and RTSC allocations that were charged direct
       to the contract as Other Direct Costs (ODC).

7.     We reclassified $              of ODC and                 of labor costs related to locally
       incurred indirect functions such as
                                  .


                                      SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance.

       We evaluated the incurred cost proposal using the applicable requirements contained in
the:

       •   Federal Acquisition Regulation, and
       •   Cost Accounting Standards

       Raytheon Polar Services was under the Smith, Davis, and Gaylord (SDG) 1 accounting
system for fiscal years 1999 through 2001. The SDG1 accounting system was converted to SAP
on September 29th 2001. During the last quarter of FY 2001 and FY 2002, Raytheon Polar
Services was on the SAP accounting system. The scope of our examination reflects our
assessment of control risk and the risk of unallowable costs being included in the proposal and


                                                 2
Audit Report No. 6161-2001P10100001

includes tests of compliance with laws and regulations that we believe provide a reasonable basis
for our opinion.

        The SDG1 accounting system was considered adequate for accumulating and reporting
costs under government flexibly priced contracts. The SAP accounting system is considered
inadequate in part based on the identification of several control objective deficiencies. Refer to
the Contractor Organization and Systems section of this report for a further description of the
contractor’s systems. In addition, Raytheon Polar Services uses the Polar Operations Financial
Management System (POFMS) to organize costs from the SAP accounting system and then bill
the costs direct to the National Science Foundation. We have not reviewed POFMS or deemed
the system adequate.

        Our assessment of control risk reflects that we have not specifically tested the
effectiveness of Raytheon Polar Services Systems and related internal controls. The scope of our
examination reflects this assessment and includes tests of compliance with laws and regulations
that we believe provide a reasonable basis for our opinion.

QUALIFICATION:

        An analysis of available documentation in the contractor’s files applicable to proposed
subcontract costs showed that evaluations by other DCAA offices are needed to reach a
definitive conclusion regarding the acceptability of the proposed subcontract costs. We
requested assist audits from the DCAA offices cognizant of the selected subcontracts. However,
we did not receive the results in time for incorporation into this report. The results of the assist
audits are considered essential to the conclusion of this examination. Therefore, the audit results
are qualified to the extent that additional costs may be questioned based on the results of the
assist audits.

        On April 14, 2004 we requested an assist audit from the DCAA Seattle Branch Office to
audit costs associated with Subcontract 450001341 which was awarded to Nana Services LLC.
On June 22, 2004, we requested an assist audit from DCAA San Diego Branch Office to audit
costs associated with Subcontract 4500016809 which was awarded to Biospherical Instruments.
Upon receipt of the assist audit reports, we will provide a supplemental report if the assist audits
include any findings.




                                                 3
Audit Report No. 6161-2001P10100001

                                     RESULTS OF AUDIT

AUDITOR’S OPINION

        a.      Indirect Rates. In our opinion, the contractor’s proposed indirect rates are not
acceptable as proposed. The examination results and recommendations are presented in Exhibit
B of this report. The contractor did not accept our findings with respect to the questioned and
reclassified costs.

       b.       Direct Costs. In our opinion, except for the unresolved costs in the amount of
             the contractor’s claimed direct costs are acceptable as adjusted by our examination.
We questioned and/or reclassified                 of direct costs proposed under the Polar Services
contract. Questioned and/or reclassified direct costs by element are presented in Exhibit A of
this report. The contractor did not accept our findings with respect to questioned and reclassified
costs. Direct costs not questioned are provisionally approved pending final acceptance. Final
acceptance of amounts proposed under the Polar Services contract does not take place until
performance under the contract is completed and accepted by the cognizant authorities and the
audit responsibilities have been completed.

      c.      Indirect Costs Subject to Penalty. None of the FY 2001 claimed costs were
deemed to be expressly unallowable and therefore subject to penalty.

       A schedule of the claimed and audited overhead and G&A costs in excess of the
contract’s ceiling rates is included in Exhibit C of this report.

       A schedule of the claimed and questioned costs by Work Breakdown Structure (WBS) is
included in Exhibit D of this report.

        We issued memorandums to the contractor detailing our audit exceptions to the major
areas of claimed costs. The contractor provided a response on December 14, 2004 which is
included as Appendix 2 of this report. The contractor disagrees with our audit findings. We
summarized the contractor’s response and provided our comments in Schedule B-1 regarding the
locally incurred costs (Note 1) and Other Direct Costs – RTSC/Corporate allocations (Note 2).
We have also summarized the contractor’s response and provided our comments in Exhibit C
regarding costs in excess of the indirect rate ceilings (Note 2).




                                                4
   Audit Report No. 6161-2001P10100001                                               EXHIBIT A

                                            Polar Services
                              Raytheon Technical Services Company

               STATEMENT OF CONTRACTOR’S CLAIMED DIRECT COSTS
                               AND RESULTS OF AUDIT
                         Polar Services Contract No. OPP-0000373
                     Period January 1, 2001 through December 31, 2001


Element of Cost           Claimed              Questioned            Unresolved             Ref.

Direct Labor                                                                           Schedule A-1
Material                                                                               Schedule A-2
Subcontracts                                                                           Schedule A-3
Other Direct Costs                                                                     Schedule A-4
Totals


           The claimed cost column represents amounts included in the contractor’s certified
   indirect cost submission for the Polar Services contract. This column does not necessarily
   represent amounts that the contractor plans to claim for reimbursement under the contract.

          Minor differences may exist in the supporting schedules due to rounding.




                                                  5
Audit Report No. 6161-2001P10100001                                            SCHEDULE A-1

            CONTRACTOR’S CLAIMED FY 2001 DIRECT LABOR COSTS
                        AND RESULTS OF AUDIT

   Element of Cost Claimed                Questioned         Unresolved         Ref.

   Direct Labor                                               $0           Note             1

EXPLANATORY NOTE:

1. Direct     Labor

       a.     Summary of Conclusions:

               We reclassified             of the contractor’s claimed direct labor associated with
       various indirect functions to the overhead pool based on its disclosed accounting
       practices.

       b.     Basis of Contractor’s Costs:

              The contractor’s claimed labor costs are based on actual labor costs incurred as
       represented in its accounting books and records.

       c. Audit       Evaluation:

              The contractor recorded               as direct labor for those labor costs
       associated with the indirect functions of
                                          using the General Management WBS.




                                                                           Furthermore, the costs
       should be included in an indirect cost pool because the Polar Services contract has
       multiple final cost objectives (WBS). Many of these WBS are restricted and require the
       contractor to segregate, accumulate, and report costs by WBS. As a result of these
       circumstances, the contractor’s normal accounting practice is to treat costs related to
       these indirect functions as an indirect cost.


                                                 6
Audit Report No. 6161-2001P10100001                                          SCHEDULE A-1

              In view of the above, we removed the claimed direct labor costs associated with
      these indirect functions from the overhead direct labor base and reclassified the costs to
      the overhead pool consistent with the contractor’s normal accounting practices. See
      Schedule B-1, Note 1 of this report for further discussion on our reclassification.

              The reclassified direct labor costs associated with the various indirect functions
      are as follows:

                 WBS                Description                       Amount




                  Total




                                               7
Audit Report No. 6161-2001P10100001                                              SCHEDULE A-2

                    CONTRACTOR’S CLAIMED FY 2002 MATERIAL COSTS
                              AND RESULTS OF AUDIT

     Element of Cost                  Claimed           Questioned        Unresolved        Ref.

     Equipment
     Other Material
     Purchased Parts
     Freight In
     TC Non-Value Added ODC                                                                Note 1

     Totals

EXPLANATORY NOTE:

1.       Other Material Costs

         a.     Summary of Conclusions:

                We questioned            of TC Non-Value Added ODC associated with
         unallowable travel and related costs.

         b.     Basis of Contractor’s Costs:

                 The contractor’s claimed TC Non-Value Added ODC are related to material costs
         incurred in the SDG1 accounting system and transferred into the SAP accounting system
         under the TC Non-Value Added ODC cost element. These costs are based on actual
         costs incurred as represented in the contractor’s accounting books and records.

         c. Audit      Evaluation:

                 We reviewed invoice number 53798 dated October 25th, 2000 from the
                                      totaling $3,942. We have determined the contractor
         incorrectly classified these costs as subcontracts rather than ODC. Therefore, we have
         reclassified these costs to ODC and projected the reclassification to the universe totaling
                   for FY 2001.




                                                  8
Audit Report No. 6161-2001P10100001                                           SCHEDULE A-3

                   CONTRACTOR’S CLAIMED SUBCONTRACT COSTS
                            AND RESULTS OF AUDIT

     Element of Cost               Claimed          Questioned        Unresolved       Ref.

     Subcontract                                                                      Note 1

     Totals

EXPLANATORY NOTES:

1.     Subcontract

       a.     Summary of Conclusions:

              We classified              of subcontract costs as unresolved pending receipt of
       requested assist audit reports from the cognizant DCAA offices.

       b.     Basis of Contractor’s Costs:

              The contractor’s claimed subcontract costs are based on actual costs incurred as
       represented in its accounting books and records.

       c. Audit      Evaluation:

               We requested an assist audit from the Seattle Branch office on April 14th, 2004
       for purchase order 4500013415. The purchase order was issued to                        ,
       located at located at
       Unresolved costs related to this purchase order totaled         .

              In addition, we requested an assist audit from the San Diego Branch office on
       June 22nd, 2004 for cost reimbursable purchase order 4500016809. The purchase order
       was issued to                                                                        .
             . Unresolved costs related to this purchase order totaled       .




                                                9
Audit Report No. 6161-2001P10100001                                        SCHEDULE A-4

              CONTRACTOR’S CLAIMED OTHER DIRECT COSTS (ODC)
                          AND RESULTS OF AUDIT

     Element of Cost Claimed                                       Questioned Ref.

     Contract Bonus
     Miscellaneous                                                              Note    1
     Miscellaneous-Petty Cash                                                   Note    2
     Travel
     Training
     Professional Services
     TC Load Direct Services/ VA ODC
     TC Load Travel                                                             Note    3
     Other ODC

     Totals

EXPLANATORY NOTES:

1. Miscellaneous

       a.     Summary of Conclusions:

               We reclassified             of Corporate and RTSC allocations to the overhead
       pool which the contractor had treated as ODC. We also reclassified                of ODC
       to the overhead pool related to locally incurred indirect functions which the contractor
       had treated as ODC. Lastly, we questioned and subsequently increased ODC by $23,850
       for ODC costs that were booked as a subcontract instead of an ODC.

       b.     Basis of Contractor’s Cost:

              The contractor’s claimed Miscellaneous ODC is based on actual costs incurred as
       represented in its accounting books and records.

c.            Audit Evaluation:

              The results of our audit evaluation of Miscellaneous ODC are summarized as
       follows:



                                              10
Audit Report No. 6161-2001P10100001                                          SCHEDULE A-4

                Description                                      Amount

                Reclassified Corporate/RTSC allocations                         (1)
                Reclassified indirect functions                                 (2)
                Inadequate supporting documentation                             (3)

                Total

              (1) Corporate/RTSC allocations are treated as an overhead cost based on the
      contractor’s disclosed accounting practices. The contractor’s accounting system treated
      the costs as indirect, however the costs were subsequently reclassified as a direct charge
      to the Polar Services contract based on adjusting journal entries. For example, Document
      No.100672385 reclassified              of Corporate/RTSC allocations to the
      Miscellaneous ODC account. We reclassified the FY 2001 Corporate allocations of
      $372,828 and FY 2001 RTSC allocations of                from the Miscellaneous ODC
      account to the overhead pool so these costs are treated consistently based on the
      contractor’s disclosed accounting practices. Our basis for this reclassification is further
      discussed in Schedule B-1, Note 2 of this report.

               (2) We reclassified of                of ODC related to indirect support functions
      to the contractor’s overhead pool based on its disclosed accounting practices. Our basis
      for this reclassification is further discussed in Schedule B-1, Note 1 of this report.

                   The ODC that we have reclassified to overhead is summarized as follows:

                  WBS WBS                Description                   ODC




                  Total




                                               11
Audit Report No. 6161-2001P10100001                                         SCHEDULE A-4

             (3) Represents the misclassification of        of material costs that should
      have been recorded as a miscellaneous ODC. These costs were detailed in Schedule A-2,
      Note 1 of this report.

2.    Miscellaneous – Petty Cash

      a.     Summary of Conclusions:

              We performed a statistical sample of journal entries and questioned 28.58% of the
      total 2001 petty cash of         which was processed through the Miscellaneous cost
      account.

      b.     Basis of Contractor’s Cost:

              The process for the Christchurch New Zealand petty cash includes maintaining all
      documentation on site in New Zealand as the costs are incurred. As needed,
      replenishment requests are forwarded to the Colorado office. Replenishment is then
      granted on an as needed basis. The replenishments are originally coded to the
      Miscellaneous account on a specific WBS. A reclassification of those costs occurs when
      journal entries are sent to Colorado for recording costs to cost objectives. Included in the
      journal entry are the New Zealand dollars incurred and the applicable exchange rates.
      The original ODC amounts recorded are not only ODC costs but all costs including
      subcontract, material and labor costs. Since these elements are recorded through the
      Miscellaneous account they became part of the population for petty cash related ODC
      and were tested accordingly.

      c. Audit      Evaluation:

               A high volume of petty cash transactions prompted the contractor to request that
      we use two (2) complete months of petty cash transactions as our statistical sample in an
      effort to facilitate the transaction testing process. As a result, it was agreed to by the
      contractor, that the 2-month sample would be projected to a universe of Christchurch
      petty cash transactions for each of the fiscal years 2000 through 2002. On that basis, two
      (2) journal entries of petty cash transactions representing the months of April 2002 and
      November 2002 were selected for review. The journal entries were received from the
      contractor and were reviewed 100%. We projected the sample results to the 2001
      universe of             resulting in questioned costs of          . Our sample selection and
      projection technique is further discussed in Audit Report No. 6161-2002P10100001,
      Polar FY 2002 Incurred Cost Audit.

3.    TC Load Travel
                                               12
Audit Report No. 6161-2001P10100001                                          SCHEDULE A-4


 a.          Summary of Conclusions:

             We questioned $18,409 related to direct travel costs because the contractor did
      not provide adequate documentation to support the claimed costs.

      b.     Basis of Contractor’s Cost:

              The contractor’s transition cost load travel costs represent costs that were incurred
      on the contractor’s SDG1 accounting system and transferred into the SAP accounting
      system. These costs represent nine (9) months of incurred travel costs.

      c. Audit      Evaluation:

             We reviewed the contractor’s FY 2001 travel transactions from the SDG1
      accounting system detail as provided by the contractor. The following transactions were
      questioned because the contractor did not provide adequate documentation to support the
      claimed costs as required in FAR 31.201-2(d).

                 Month JV          No. Purpose        Questioned

                 May 2001      351          Employee travel                $646
                 Sept. 2001    None         Employee travel               12,232
                 Sept. 2001    None         Employee travel                5,531

                 Total                                                  $18,409




                                               13
Audit Report No. 6161-2001P10100001                              EXHIBIT B

                                  Polar Services
                       Raytheon Technical Services Company

   STATEMENT OF CONTRACTOR’S CLAIMED INDIRECT COSTS AND RATES
                         AND RESULTS OF AUDIT
                   Polar Services Contract No. OPP-0000373
               Period January 1, 2001 through December 31, 2001


        Claimed                       Questioned        Audited Ref.
Overhead
Pool                                                                   Schedule B-1
Base
Rate

Fringe Benefits
Pool                                                                   Schedule B-2
Base

G&A
Pool                                                                   Schedule B-3
Base
Rate




                                       14
Audit Report No. 6161-2001P10100001                                           SCHEDULE B-1

              CONTRACTOR’S CLAIMED OVERHEAD POOL AND BASE COSTS
                             AND RESULTS OF AUDIT

                                          Am       ount           Amount Ref.
     Claimed Overhead Pool

     Reclassified Costs:
     Locally Incurred Costs                                                          Note 1
     Corporate & RTSC Allocations                                                    Note 2
     Total Questioned Pool Costs

     Revised Pool

     Claimed Direct Labor Base

     Reclassified Costs:
     Locally Incurred Labor Costs                                                    Note 1
     Total Questioned Base Costs

     Revised Overhead Base

EXPLANATORY NOTES:

1.       Locally Incurred Costs

         a.      Summary of Conclusions:

                 Our examination of locally incurred overhead costs revealed that the contractor
         did not always classify indirect functions and associated costs in accordance with its
         disclosed accounting practices. Instead, the contractor recorded all local support
         (indirect) functions to the Polar Services contract as direct costs. As a result, we
         reclassified Miscellaneous ODC of             and labor costs of            to the local
         overhead pool. These costs represented a significant amount that were booked direct to
         the contract using the General Management WBS (PS-X0).

         b.      Basis of Contractor’s Cost:

                 The contractor’s claimed costs are based on actual costs incurred as represented in
         its accounting books and records.


                                                 15
Audit Report No. 6161-2001P10100001                                          SCHEDULE B-1

c.           Audit Evaluation:

              The overhead pool was reviewed based on costs incurred and submitted in the
      contractor’s incurred cost submission. Due to immateriality of the costs actually
      included in the overhead pool, no substantive testing was considered necessary or
      performed. We did note that the overhead pool costs appeared to be insignificant for a
      contract the size of the Polar Services contract. As a result, the contract and the original
      proposal were reviewed to determine contract requirements for support functions during
      the term of the contract. The contractor’s disclosure statement (disclosed accounting
      practices) was also reviewed for the treatment of costs regarding the functions as
      described. According to the contract, the contractor is required to follow its disclosed
      accounting practices. NSF RFP No. OPP98001, Amendment No. 8 required the
      contractor’s cost or pricing data to follow its Cost Accounting Standards Board
      Disclosure Statement (Form CASB DS-1). We confirmed that the contractor was
      recording all local support functions to the Polar Services contract as direct costs. The
      WBS listing was then reviewed to determine the various support functions that were
      indirect to the program. The significant support functions reviewed that were indirect to
      the program were

              Our reclassification of labor costs to the local overhead pool is discussed in
      further detail in Schedule A-1, Note 1of this report. Our reclassification of the
      Miscellaneous ODC is discussed in further detail in Schedule A-4, Note 1 of this report.

 d.          Contractor’s Reaction:

              The contractor does not agree that the locally incurred costs should be reclassified
      or disallowed. First, the contractor contends the parties expressly agreed that all locally
      incurred costs at Polar would be charged as direct costs to the General Management WBS
      and that they would not be subject to the overhead ceiling rate. Second, the Polar
      contract, not the WBS, is the final cost objective based on the CASB definition of a final
      cost objective. Individual tasks and CLINs under a contract do not necessarily represent
      final cost objectives nor is a contractor required to treat them as such for cost accounting
      purposes. Third, the contractor asserts that its entitled to decide what a final
      accumulation point is in the accounting system. In the RTSC accumulation system, the
      Polar contract is the final cost objective according to the contractor.

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.




                                               16
Audit Report No. 6161-2001P10100001                                       SCHEDULE B-1

e.           Auditor’s Comments:

              CAS 418-40(a) requires Polar Services to have a written statement of accounting
      policies and practices for classifying costs as direct and indirect and to apply those
      policies and practices consistently.




              The Polar RFP required the contractor’s cost or pricing data to follow its
      disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
      (procurement) did not require any costs normally classified as indirect (e.g., locally
      incurred overhead, Raytheon allocations or RTSC allocations) to be treated as direct
      costs to the contract. The Polar RFP and its requirement for the contractor to follow
      disclosed cost accounting practices is consistent with the intent of the CASB when it
      published comments regarding this issue in Part II, Preambles to the Related Rules and
      Regulations Published by the Cost Accounting Standards Board, Preambles to Part 331,
      Contract Coverage, Comment No. 11, Additional requirements by agencies, states that:

                    “…concern was expressed that Federal agencies might require the
             submission of cost proposals in ways inconsistent with the cost accounting
             practices of some or all of the potential offerors. The Board recognizes that this
             has happened in the past, but it notes that Board rules, regulations, and Cost
             Accounting Standards are to be used by relevant Federal agencies as well as by
             contractors and subcontractors, and it believes that henceforth requests for
             proposals must be fully consistent with such rules, regulations, and standards,
             although of course the Federal agency may ask for supplementary information to
             accompany proposals if this is needed to meet the agency’s requirements.”




                            . Specifically, Polar Services classified some normally indirect
      expenses
                                     as direct expenses. As a result, the NSF Contracting
      Officer requested the NSF OIG to review the basis for these classifications by Polar
                                             17
Audit Report No. 6161-2001P10100001                                        SCHEDULE B-1

      Services and advise if the proposed allocations are consistent with applicable RTSC
      disclosure statement(s) and otherwise represent allowable, allocable, and reasonable costs
      of contract performance.

              Lastly, we believe that the Polar Services contract has multiple final cost
      objectives in the form of Work Breakdown Structures (WBS) based on the following:

              (1) The contract has determined that the WBS is the final cost objective. There
      is a number of Restricted WBS such as SPSM, SPSE, JSOC, IS Infrastructure, MTRS,
      CTBT, ANSMET II, and IceCube that require the contractor to separately accumulate,
      report, and bill costs to NSF. For each WBS, the contractor even tracks and reports by:
      obligated, advances, expenditures, available funds, and unliquidated advances in its
      financial reports to NSF.

               (2) The contractor has determined that the WBS is the final cost objective and
      one of the final accumulation points. The CASB definition of a final cost objective
      states, “Final cost objective means a cost objective which has allocated to it both direct
      and indirect costs, and in the contractor’s accumulation system, is one of the final
      accumulation points.” The contractor’s accounting system segregates, accumulates, and
      bills costs by WBS which includes both direct and indirect costs as required by the
      CASB definition of a final cost objective. Also, the contractor seems to imply that a
      contract is always the final cost objective. We disagree with the contractor because
      contracts may include/require task orders/delivery orders which will become the final
      cost objectives. In this case, a contractor typically segregates and accumulates its costs
      by task and/or delivery order and separately closes out each of these contracting actions
      instead of the contract as a whole. In addition, these task and/or delivery orders have
      their own ceiling amounts and the contractor is responsible for complying with those
      separate ceilings instead of any overall contract ceiling amount.

              (3) The contractor applies a            rate to the base costs of each WBS for
      reporting and billing costs to NSF. As a result, the WBS has to be the final cost objective
      because CAS 410 requires that G&A expenses can only be allocated to final cost
      objectives. According to 48 CFR 9904.410-40(a), the basic requirement of CAS 410 is
      that G&A expenses be grouped into a separate indirect cost pool and allocated only to
      final cost objectives.

             In summary, we believe the contractor is in noncompliance with CAS 418-40(a)
      and has not followed its disclosed accounting practices which is a requirement of that
      standard.

2.    Corporate and RTSC Allocations
                                              18
Audit Report No. 6161-2001P10100001                                         SCHEDULE B-1


      a.     Summary of Conclusions:

             Our examination of the overhead pool for allocated costs from RTSC and
      Raytheon Corporate resulted in an increase in the overhead pool by        with a
      proportionate decrease in ODC.


                                                                                               .

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c. Audit      Evaluation:

             Polar Services demonstrated, through a prepared schedule and Annual Program
      Plan Cost Structure, the methodology used when recording allocated costs from
      Raytheon Corporate and Raytheon Technical Services (RTSC). Understanding the
      contractor’s methodology and classification of costs direct vs. indirect is important since
      the contract includes a             ceiling rate.

             It was determined that Polar Services was recording allocations direct to the
      contract using the General Management WBS.

                                                                                               ,




                             .

              Our reclassification of the RTSC and Corporate allocations to the local overhead
      pool is discussed in further detail in Schedule A-4, Note 1of this report. The Fiscal Year
      2001 RTSC and Corporate allocations that we reclassified to the local overhead pool are
      shown in the tables below:




                                               19
Page 20 has been redacted in its entirety
Audit Report No. 6161-2001P10100001                                        SCHEDULE B-1


                                   Corporate Allocations




      d. Contractor’s     Response:

             The contractor asserts that the Polar business unit was not organized as a separate,
      stand-alone operation. As a result, Polar has in effect purchased certain systems and
      support services from RTSC and Raytheon (Corporate) and charged the costs for these
      systems and services to the Polar contract in the form of cost allocations.             ,




                                              21
Audit Report No. 6161-2001P10100001                                        SCHEDULE B-1

      e. Auditor’s     Comments:

             The contractor judgmentally selected certain RTSC and Corporate allocations
      (flow-down costs) to charge direct to the Polar contract while others remained indirect.


                                               . We reclassified to the overhead pool all flow
      down costs to the Polar business unit that the contractor elected to charge direct to the
      contract. We are not aware of any other RTSC business units that judgmentally select
      certain allocations and charge the associated costs direct to the contract. See Note 1
      above for additional auditor comments on the contractor’s response to our audit findings.




                                              22
Audit Report No. 6161-2001P10100001                                       SCHEDULE B-2

               CONTRACTOR’S CLAIMED FRINGE BENEFIT COSTS
                        AND RESULTS OF AUDIT

                                     Fiscal Year 2001 Fringe
          Union   Audited                       Audited        Claimed   Questioned
           Code     Rate La       bor Base       Fringe         Fringe     Costs
          SDG1 Accounting System:                                         (Note 1)




                                               23
Audit Report No. 6161-2001P10100001                                         SCHEDULE B-2

EXPLANATORY NOTE:

1. Fringe     Burden

       a.     Summary of Conclusions:

              Questioned costs results from application of recommended/audited rates to the
       applicable fringe codes for Polar Services.

       b.     Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.

       c. Audit     Evaluation:

               RTSC fringe costs are claimed in total in the RTSC 2001 Incurred Cost
       Submission. In an effort to confirm the total claimed, the labor costs have been
       segregated based on the applicable fringe bases. The RTSC audited fringe rates by union
       code for fiscal year 2001 were then applied to the associated labor bases and totaled for a
       total audited fringe burden of          . The total applied fringe was then compared to the
       claimed fringe from the contractor’s incurred cost submissions for the same time frame of
               . resulting in an over application of claimed fringe costs of        ..




                                               24
Audit Report No. 6161-2001P10100001                                            SCHEDULE B-3

                  CONTRACTOR’S CLAIMED G&A POOL/BASE COSTS
                           AND RESULTS OF AUDIT

Description Amount                                                   Ref.
(Note                                                           1)
 Fringe Benefits in Excess of Claimed Rates                            .        Schedule B-2

 G&A Base Adjustment                                                   .

EXPLANATORY NOTE:

1. G&A       Expense

       a.     Summary of Conclusions:

              We do not take any exception to the contractor’s claimed G&A pool. However,
       we adjusted the contractor’s claimed G&A base by           ..

       b.     Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.

       c. Audit      Evaluation:

               We did not perform any transaction testing on the claimed G&A pool because of
       the immaterial costs included in that pool and the ceiling rate included in the contract.
       However, we adjusted the contractor’s claimed G&A base in the amount of                 . as a
       result of our audit findings related to fringe benefits. All other questioned costs are
       subject to G&A burdening regardless of their allowability.




                                                 25
Audit Report No. 6161-2001P10100001                                         EXHIBIT C

                                     Polar Services
                          Raytheon Technical Services Company

     COMPUTATION OF TOTAL COSTS IN EXCESS OF CONTRACT CEILINGS
                   Polar Services Contract No. OPP-0000373
               Period January 1, 2001 through December 31, 2001

Chart has been Redacted




Chart has been Redacted




EXPLANATORY NOTES:

1.    Overhead and G&A Costs in Excess of Ceiling – Without Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead and G&A costs in excess of the ceiling rates. These
      amounts represent the costs in excess of the ceiling rates based on the contractor’s
      claimed indirect rates and allocation bases, i.e., without any audit adjustments.

                                            26
Audit Report No. 6161-2001P10100001                                              EXHIBIT C


      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates but
      without including any audit adjustments. These amounts represent the costs in excess of
      the ceiling rates based on the contractor’s claimed indirect rates and allocation bases.
      Any comparison to billed costs should be performed after final negotiations and
      resolution with the contractor.

2.    Overhead and G&A Costs in Excess of Ceiling – With Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead and G&A costs in excess of the ceiling rates. These
      amounts represent the costs in excess of the ceiling rates that includes the audit
      adjustments discussed in this report.

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates that
      reflects our audit adjustments. These amounts represent the costs in excess of the ceiling
      rates based on incorporating the audit adjustments made to the contractor’s indirect cost
      pools and allocation bases. Any comparison to billed costs should be performed after
      final negotiations and resolution with the contractor.

      d. Contractor’s      Response:

              The contractor states that the amounts identified by DCAA as claimed over
      ceiling have not been claimed nor recovered under the contract. The costs are included in
      the actual incurred cost submission and they are charged to the contract because they are

                                              27
Audit Report No. 6161-2001P10100001                                          EXHIBIT C

      actual costs and they must be recorded on the books, but we are aware of no evidence
      that the costs have ever been included in any billing or otherwise claimed by Polar.

      e. Auditor’s     Comments:

              We disagree that the contractor has not billed nor recovered these over ceiling
      amounts under the contract. The contractor billed and recovered these amounts as direct
      costs as discussed in the exhibits to this report. We reclassified these direct costs
                                                                           to overhead and
      computed the amounts that exceed the contract’s ceiling rates.




                                             28
Audit Report No. 6161-2001P10100001                                              EXHIBIT D

                                      Polar Services
                           Raytheon Technical Services Company

            COMPUTATION OF CLAIMED AND QUESTIONED COSTS BY
                       WORK BREAKDOWN STRUCTURE
                      Polar Services Contract No. OPP-0000373
                  Period January 1, 2002 through December 31, 2002

WBS Description                   Claimed                   Questioned        Difference
                                                                     (Note 1)
PS-00
PS-01
PS-02
PS-03
PS-04
PS-05
PS-07

PS-08
PS-09
PS-20
PS-21
PS-22
PS-23
PS-24
PS-25
PS-27
Totals

Note 1: The significant portion of questioned costs is for the indirect functions and
Corporate/RTSC allocations related to the General Management WBS and questioned
specifically on those WBS structures. The balance of the questioned costs was allocated to all
WBS based on costs incurred.



                                               29
Audit Report No. 6161-2001P10100001

                   CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization.

       On December 18, 1997, Raytheon announced the completion of its merger with the
Hughes Corporation and the formation of Raytheon Systems Company, a subsidiary of Raytheon
Company. Raytheon Systems Company consisted of 5 segments, including Training and
Services (T&S). Raytheon T&S segment, established January 1, 1999, combined the following
legacy organizations: Rayserv (legacy Raytheon) and Hughes Technical Services Company,
Raytheon Air Warfare Center, Raytheon STX, Raytheon Electronic Technologies Inc., Raytheon
Data Systems, and Raytheon Training Inc., Training Operations and Commercial Training
Divisions.

        On October 18, 1999, Raytheon’s T&S segment reorganized, transforming four (4)
divisions into thirteen (13) separate business units. This new organization, renamed Raytheon
Technical Services Company (RTSC), became fully operational January 3, 2000. In the new
structure, the Raytheon Systems Company (RSC) was eliminated. Accordingly, RTSC and other
Raytheon Company segments will report directly to the Corporate Executive Office.




                                             30

                               FOR OFFICIAL USE ONLY
Pages 31 – 42 have been Redacted
Audit Report No. 6161-2001P10100001

                                      DCAA PERSONNEL

Telephone                                                                          No.
Primary contact(s) regarding this audit:



Other contact(s) regarding this audit report:
                       Branch Manager


                                                                             FAX No.
         Herndon Branch Office


                                                                       E-mail Address
         Herndon Branch Office

General information on audit matters is available at http://www.dcaa.mil/.

                                      RELEVANT DATES

NSF OIG Request dated July 31, 2003

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/


                                                           Branch Manager
                                                           DCAA Herndon Branch Office




                                                43
Audit Report No. 6161-2001P10100001

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION

 E-m                                                                    ail Address
National Science Foundation                                        Kstagner@nsf.gov
ATTN: Ms. Deborah Cureton, Associate Inspector General for Audit
4201 Wilson Boulevard                                               Telephone No.
Arlington, VA 22230                                                 (303) 312-7655

Polar Services
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191
(Copy furnished thru NSF Contracting Officer)


RESTRICTIONS

1.




2.



3.




                                                44
Audit Report No. 6161-2001P10100001




                            APPENDIX 1

                         Certificate of Final Indirect Costs




                                         45

                           FOR OFFICIAL USE ONLY
                        CERTIFICATE OF fiNAL INDIRECT COSTS




TNo ;. to oertif)i , .... t I ......... ""';e .. ..:1 thi5 ptopoaaI 10 ..... blialllinal   ~   CO$t
rates and to !he beat of my knowledge erod beI~ :

    1.         All costs incIut!ed in thi. propOsal ("Ra)1!leon Tocnniclll SeMc:eo
               Company 2001 Ovemeed Propo$8I" dMeod Oecembet 18. 2002)10
               DStet>lith ~naI Onditad rates fell' labo< ",,&rhead. G&A. and Iringe fell'
               fitca1 ,.st 2001, ..... allowable in lI<:COItIanee with !he cotl pMdpIu 01
               me FOOe,. A.I;q.Iis/tiOO regulalion (fAR) and its supplamen1A
               epp!icabltllO tI>& conUDCU to wt'Iieh Ihe r... al indite(:l cosl ralel ..,;u
               epply. and

    2.         ThIs p<O(>Osai don not indutIe sny costs which are expresaly
               unallowable .....:I&t applic<lble COSI principles 01 !he fAR 0< its
               supplerneOIS.

Firm:

SigoalYre:

Name 01 CMifying 0if1Cia1:
              DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 06161-2002P10100001


                                                          February 11, 2005

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton, Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:       DCAA Herndon Branch Office
                   171 Elden Street, Suite 315
                   Herndon, VA 20170
                       Telephone No.
                       FAX No.
E-m                        ail Address

SUBJECT:           RTSC Polar FY 2002 Incurred Cost Audit

REFERENCES:        Prime Contract Number: OPP-0000373
                   Relevant Dates: (See Page 57)

CONTRACTOR: Polar Services
               Raytheon Technical Services Company
               12160 Sunrise Valley Drive
               Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 58

                                                                              Page
CONTENTS:          Subject of Audit                                             1
Executive                     Summary                                           1
                   Scope of Audit                                               2
                   Results of Audit                                             4
                   Contractor Organization and Systems                         43
                   DCAA Personnel and Report Authorization                     56
                   Audit Report Distribution and Restrictions                  58
Appendixes                                                                     58
Audit Report No. 6161-2002P10100001

                                     SUBJECT OF AUDIT

        We examined the Raytheon Technical Services Company certified final indirect cost rate
proposal and related books and records for the reimbursement of Polar Services FY 2002
incurred costs. The purpose of the examination was to determine allowability of direct and
indirect costs and recommend contracting officer-determined indirect cost rates for FY 2002.
The proposed rates apply to prime contract OPP-0000373. A copy of RTSC Certificate of Final
Indirect Costs for the fiscal year examined is included as Appendix 1 to this report.

       The incurred cost proposals are the responsibility of the contractor. Our responsibility is
to express an opinion based on our examination.


                                  EXECUTIVE SUMMARY

        Our examination of the         million proposal disclosed              of questioned
costs, including the following significant items:

           •   Fringe benefit costs
           •   Overhead costs in excess of ceiling
           •   Unallowable costs
           •   G&A costs in excess of ceiling

SIGNIFICANT ISSUES:

1.     The contractor is in noncompliance with CAS 418 and disclosed accounting practices
       (i.e., CAS disclosure statement).

2.     We questioned              related to the application of audited RTSC fringe rates as they
       are applied to the Polar Services fringe benefit bases. The FY 2002 fringe rates have not
       yet been negotiated so the claimed rates were used to calculate the FY 2002 fringe
       indirect costs.

3.     We questioned            of unallowable Other Direct Cost (ODC) related to transaction
       testing of ODC, Christchurch petty cash, materials, and subcontract costs.

4.     We questioned              of G&A costs in excess of the contract ceiling. The G&A rates
       were recalculated and compared to the claimed rates to determine the amounts in excess
       of the   contract ceiling rate.
Audit Report No. 6161-2002P10100001

5.     We questioned             of overhead costs in excess of the contract ceiling. The
       overhead rates were recalculated and compared to the claimed rates to determine the
       amounts in excess of the    contract ceiling rate.

6.     We reclassified            of Corporate and RTSC allocations that were charged direct to
       the contract as Other Direct Cost (ODC).

7.     We reclassified            of ODC and $1,358,527 of labor costs related to locally
       incurred indirect functions such as
                 .

8.     We reclassified          of costs related to subcontracts but recorded as ODC and
       subsequently burdened with G&A expense.

                                      SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance.

       We evaluated the incurred cost proposal using the applicable requirements contained in
the:

       •   Federal Acquisition Regulation, and
       •   Cost Accounting Standards

       Raytheon Polar Services was under the Smith, Davis, and Gaylord (SDG) 1 accounting
system for fiscal years 1999 through 2001. The SDG1 accounting system was converted to SAP
on September 29th 2001. During the last quarter of FY 2001 and FY 2002, Raytheon Polar

                                                 2
Audit Report No. 6161-2002P10100001

Services was on the SAP accounting system. The scope of our examination reflects our
assessment of control risk and the risk of unallowable costs being included in the proposal and
includes tests of compliance with laws and regulations that we believe provide a reasonable basis
for our opinion.

        The SDG1 accounting system was considered adequate for accumulating and reporting
costs under government flexibly priced contracts. The SAP accounting system is considered
inadequate in part based on the identification of several control objective deficiencies. Refer to
the Contractor Organization and Systems section of this report for a further description of the
contractor’s systems. In addition, Raytheon Polar Services uses the Polar Operations Financial
Management System (POFMS) to organize costs from the SAP accounting system and then bill
the costs direct to the National Science Foundation. We have not reviewed POFMS or deemed
the system adequate.

        Our assessment of control risk reflects that we have not specifically tested the
effectiveness of Raytheon Polar Services systems and related internal controls. The scope of our
examination reflects this assessment and includes tests of compliance with laws and regulations
that we believe provide a reasonable basis for our opinion.

QUALIFICATION:

        An analysis of available documentation in the contractor’s files applicable to proposed
subcontract costs showed that evaluations by other DCAA offices are needed to reach a
definitive conclusion regarding the acceptability of the proposed subcontract costs. We
requested assist audits from the DCAA offices cognizant of the selected subcontracts. However,
we did not receive the results in time for incorporation into this report. The results of the assist
audits are considered essential to the conclusion of this examination. Therefore, the audit results
are qualified to the extent that additional costs may be questioned based on the results of the
assist audits.

        On April 14, 2004 we requested an assist audit from the DCAA Seattle Branch Office to
audit costs associated with Subcontract 450001341 which was awarded to Nana Services LLC.
On June 22, 2004, we requested an assist audit from DCAA San Diego Branch Office to audit
costs associated with Subcontract 4500016809 which was awarded to Biospherical Instruments.
Upon receipt of the assist audit reports, we will provide a supplemental report if the assist audits
include any findings.




                                                 3
Audit Report No. 6161-2002P10100001

                                     RESULTS OF AUDIT

AUDITOR’S OPINION

        a.      Indirect Rates. In our opinion, the contractor’s proposed indirect rates are not
acceptable as proposed. The examination results and recommendations are presented in the
Exhibit B of this report. The contractor did not accept our findings and recommendations with
respect to the questioned and reclassified costs.

       b.       Direct Costs. In our opinion, except for the unresolved costs in the amount of
             , the contractor’s claimed direct costs are acceptable as adjusted by our examination.
We questioned and/or reclassified                , of direct costs proposed under the Polar Services
contract. Questioned and/or reclassified direct costs by element are presented in Exhibit A of
this report. The contractor did not accept our findings and recommendations with respect to the
questioned and reclassified costs. Direct costs not questioned are provisionally approved
pending final acceptance. Final acceptance of amounts proposed under the Polar Services
contract does not take place until performance under the contract is completed and accepted by
the cognizant authorities and the audit responsibilities have been completed.

        c.      Penalties for Unallowable Costs. Indirect costs questioned in this examination are
believed to be subject to the penalties provided in FAR 52.242-3 and included in Exhibit C of
this report. Our recommendations for each questioned item are included in the Exhibits and their
supporting schedules. Our recommendations concerning the interest to be recovered on
unallowable costs paid will be furnished when we have received your determination on penalties
to be assessed.

       A schedule of the claimed and audited overhead and G&A costs in excess of the
contract’s ceiling rates is included in Exhibit D of this report.

       A schedule of the claimed and questioned costs by Work Breakdown Structure (WBS) is
included in Exhibit E of this report.

        We issued memorandums to the contractor detailing our audit exceptions to the major
areas of claimed costs. The contractor provided a response on December 14, 2004 which is
included as Appendix 2 of this report. The contractor disagrees with our audit findings. We
summarized the contractor’s response and provided our comments in Schedule B-1 regarding the
locally incurred costs (Note 1) and Other Direct Costs - RTSC/Corporate allocations (Note 2).
We have also summarized the contractor’s response and provided our comments in Exhibit D
regarding costs in excess of the indirect rate ceilings (Note 2).

                                                 4
   Audit Report No. 6161-2002P10100001                                         EXHIBIT A

                                         Polar Services
                              Raytheon Technical Services Company

               STATEMENT OF CONTRACTOR’S CLAIMED DIRECT COSTS
                               AND RESULTS OF AUDIT
                         Polar Services Contract No. OPP-0000373
                     Period January 1, 2002 through December 31, 2002


Element of Cost Claimed             Questioned              Unresolved           Ref.

Direct Labor                                                                         Schedule    A-1
Material                                                                             Schedule    A-2
Subcontracts                                                                         Schedule    A-3
Other Direct Costs                                                                      Schedule A-4

Totals


           The claimed cost column represents amounts included in the contractor’s certified
   indirect cost submission for the Polar Services contract. This column does not necessarily
   represent amounts that the contractor plans to claim for reimbursement under the contract.

          Minor differences may exist in the supporting schedules due to rounding.




                                                  5
Audit Report No. 6161-2002P10100001                                            SCHEDULE A-1

            CONTRACTOR’S CLAIMED FY 2002 DIRECT LABOR COSTS
                        AND RESULTS OF AUDIT

   Element of Cost Claimed               Questioned          Unresolved        Ref.

   Direct Labor                                               $0          Note              1

EXPLANATORY NOTE:

1. Direct     Labor

       a.     Summary of Conclusions:

               We reclassified                of the contractor’s claimed direct labor associated
       with various indirect functions to the overhead pool based on its disclosed accounting
       practices.

       b.     Basis of Contractor’s Costs:

              The contractor’s claimed labor costs are based on actual labor costs incurred as
       represented in its accounting books and records.

       c. Audit       Evaluation:

              The contractor recorded               as direct labor for those labor costs associated
       with the indirect functions of                                                          using
       the General Management WBS.




       Furthermore, the costs should be included in an indirect cost pool because the Polar
       Services contract has multiple final cost objectives (WBS). Many of these WBS are
       restricted and require the contractor to segregate, accumulate, and report costs by WBS.
       As a result of these circumstances, the contractor’s normal accounting practice is to treat
       costs related to these indirect functions as an indirect cost.


                                                6
Audit Report No. 6161-2002P10100001                                          SCHEDULE A-1

              In view of the above, we removed the claimed direct labor costs associated with
      these indirect functions from the overhead direct labor base and reclassified the costs to
      the overhead pool consistent with the contractor’s normal accounting practices. See
      Schedule B-1, Note 1 for further discussion on our reclassification.

              The reclassified direct labor costs associated with the various indirect functions
      are as follows:

                 WBS Description                   Reclassified




                  Total




                                               7
 Audit Report No. 6161-2002P10100001                                          SCHEDULE A-2

                   CONTRACTOR’S CLAIMED FY 2002 MATERIAL COSTS
                             AND RESULTS OF AUDIT

     Element of Cost Claimed                        Questioned Unresolved              Ref.

     Equipment
     Other Material                                                                 Note    1
     Purchased Parts
     Freight In
     Material Scrap

     Totals                                                                    $0

 EXPLANATORY NOTE:

1.      Other Material Costs

        a.     Summary of Conclusions:

                We questioned             of Other Material costs associated with unallowable
        travel and related costs.

        b.     Basis of Contractor’s Costs:

                The contractor’s claimed Other Material costs are based on actual costs incurred
        as represented in its accounting books and records.

        c. Audit       Evaluation:

                 We have questioned               of Other Materials costs because the contractor
        did not provide adequate supporting documentation (no reason for expense) as required
        in FAR 31.201-2(d). The claimed costs were included on Document No.100296536
        dated January 25, 2002. The FAR states that, “A contractor is responsible for accounting
        for costs appropriately and for maintaining records, including supporting
        documentation, adequate to demonstrate that costs claimed have been incurred, are
        allocable to the contract, and comply with applicable costs principles in this subpart and
        agency supplements. The contracting officer may disallow all or part of a claimed cost
        which is inadequately supported.” According to the contractor, the claimed costs
        represent airline tickets for an employee’s spouse and medical expenses for an employee.
        Some of these claimed costs appear to be expressly unallowable since the trip was not for
                                                8
Audit Report No. 6161-2002P10100001                                        SCHEDULE A-2

      official company business as required in FAR 31.205-46(a)(1) which states, “Costs
      incurred by contractor personnel on official company business are allowable, subject to
      the limitations contained in this subsection.”.




                                             9
Audit Report No. 6161-2002P10100001                                          SCHEDULE A-3

                  CONTRACTOR’S CLAIMED SUBCONTRACT COSTS
                           AND RESULTS OF AUDIT

     Element of Cost Claimed                        Questioned        Unresolved Ref.
                                                     (Note 1)          (Note 2)
     Subcontracts
     Other Subcontract Labor

     Totals

EXPLANATORY NOTES:

1.     Subcontract – Questioned

       a.       Summary of Conclusions:

              We reclassified             of claimed ODC to subcontract costs. In addition, we
       questioned             of claimed costs based on reasonableness and $7,090 because the
       amount is an expressly unallowable cost (late fees).

       b.       Basis of Contractor’s Costs:

              The contractor’s claimed subcontract costs are based on actual costs incurred as
       represented in its accounting books and records.

       c. Audit       Evaluation:

                The results of our examination of subcontract costs are summarized as follows:

        Description         Am                             ount

        Reclining       chairs                                       (1)
              Contractor recordation error                           (2)
              Professional services ODC                              (3)

        Total

                (1) We questioned $2,359 based on a sample of subcontract cost transactions.
                Our sample disclosed an invoice and pro-card statement for
                      which we believe is an unreasonable costs based on FAR 31.201-3(a). The
                                               10
Audit Report No. 6161-2002P10100001                                          SCHEDULE A-3

            FAR states that, “A cost is reasonable if, in its nature and amount, it does not
            exceed that which would be incurred by a prudent person in the conduct of
            competitive business.”

            (2) We reclassified                of ODC to subcontracts because the contractor
            incorrectly recorded these costs in its system (see Schedule A-4, Note 6). We
            performed a reconciliation of claimed to billed costs for the time period audited
            and found discrepancies between ODC and subcontracts. According to the
            contractor, the costs were incorrectly recorded in its accounting system, but the
            error was discovered during the billing process and billed correctly to the
            contract. However, the contractor never reclassified the claimed costs from ODC
            to subcontracts in its accounting system. We later determined that the SF 1034s
            that the contractor provided for us to perform the reconciliation was not the forms
            actually submitted to NSF for billing purposes.

                   The costs that we reclassified from ODC to subcontracts based on the
            contractor’s accounting error are summarized in the table on the next page. The
            over/understated subcontract amount is based on a comparison of the costs
            recorded in the contractor’s accounting system (SAP) which is incorrect and the
            amount billed to the contract (voucher amount) which is correct. The contractor
            should adjust the subcontract costs recorded in its accounting system for each
            WBS to reflect this over/understated amount.




                                             11
Page 12 has been Redacted
Audit Report No. 6161-2002P10100001                                            SCHEDULE A-3

               (3) We determined that specific transactions reviewed as part of the
               professional services ODC were actually subcontract costs. Transactions totaling
                          were classified as ODC but should have been recorded as subcontracts
               (see Schedule A-4, Note 5). In addition, $7,090 is considered expressly
               unallowable because these costs are late fees related to vendor invoices. This
               expressly unallowable amount is subject to penalties.

                      The costs that we have reclassified from professional services ODC to
               subcontracts including the invoice related to unallowable late fees (21802COR)
               are summarized as follows:

                      Purchase
     Document No.     Order No.         Company                       Invoice No.      Amount




     Total

2.      Subcontract – Unresolved

        a.     Summary of Conclusions:

               We classified              of subcontract costs as unresolved pending receipt of
        requested assist audit reports from the cognizant DCAA offices.

        b.     Basis of Contractor’s Costs:

               The contractor’s claimed subcontract costs are based on actual costs incurred as
        represented in its accounting books and records.

        c. Audit      Evaluation:

                We requested an assist audit from the Seattle Branch office on April 14th, 2004
        for purchase order 450001341. The purchase order was issued to

        Unresolved costs related to this purchase order totaled


                                                13
Audit Report No. 6161-2002P10100001                                      SCHEDULE A-3

             In addition, we requested an assist audit from the San Diego Branch office on
      June 22nd, 2004 for cost reimbursable purchase order 4500016809. The purchase order
      was issued to
             . Unresolved costs related to this purchase order totaled       .




                                            14
Audit Report No. 6161-2002P10100001                                          SCHEDULE A-4

               CONTRACTOR’S CLAIMED OTHER DIRECT COSTS (ODC)
                           AND RESULTS OF AUDIT

            Element of Cost Claimed                           Questioned Ref.

            Contract Bonus
            Miscellaneous                                                 Note     1
            Miscellaneous-Petty Cash                                      Note     2
            Travel                                                        Note     3
            Training                                                      Note     4
            Professional Services                                         Note     5
            Other ODC
            Subcontract Costs                                             Note     6

            Totals

EXPLANATORY NOTES:

1. Miscellaneous

 a.             Summary of Conclusions:

               We reclassified            of Corporate and RTSC allocations to the overhead
       pool which the contractor had treated as ODC. We also reclassified              of ODC to
       the overhead pool related to locally incurred indirect functions which the contractor had
       also treated as ODC. Lastly, we questioned               of ODC because the contractor
       was unable to provide adequate supporting documentation.

       b.       Basis of Contractor’s Cost:

              The contractor’s claimed Miscellaneous ODC is based on actual costs incurred as
       represented in its accounting books and records.




                                              15
Audit Report No. 6161-2002P10100001                                          SCHEDULE A-4

c.           Audit Evaluation:

             The results of our examination of Miscellaneous ODC are summarized as follows:

                Description                                    Amount

                Reclassified Corporate/RTSC allocations                       (1)
                Reclassified indirect functions                               (2)
                Inadequate supporting documentation                           (3)

                Total

              (1) Corporate/RTSC allocations are treated as an overhead costs based on the
      contractor’s disclosed accounting practices. The contractor’s accounting system treated
      the costs as indirect, however the costs were subsequently reclassified as a direct charge
      to the Polar Services contract based on adjusting journal entries. For example, Document
      No.100672385 reclassified              of Corporate/RTSC allocations to the
      Miscellaneous ODC account. We reclassified the FY 2002 Corporate allocation of
                 and FY 2002 RTSC allocation of               from the Miscellaneous ODC
      account to the overhead pool so these costs are treated consistently based on the
      contractor’s disclosed accounting practices. See Schedule B-1, Note 2 for the basis of
      our reclassification.

              (2) We reclassified               of ODC related to indirect support functions to
      the contractor’s overhead pool based on its disclosed accounting practices. Our basis for
      this reclassification is discussed in Schedule B-1, Note 1 of this report.

                   The ODC that we have reclassified to overhead are summarized as follows:

             WBS Description                                            FY 2002




             Totals


                                              16
Audit Report No. 6161-2002P10100001                                             SCHEDULE A-4

              (3) A statistical sample of Miscellaneous cost transactions disclosed that the
      contractor was unable to provide adequate documentation to support costs related to
                     in the amount of          (Document No.100397588). We have
      questioned these costs based on FAR 31.201-2(d) which requires the contractor to
      support its claimed costs. We projected our sample results to the universe resulting in
      total questioned costs of

2.    Miscellaneous – Petty Cash

      a.     Summary of Conclusions:

              We performed a statistical sample of journal entries and questioned 28.58% of the
      total petty cash of          which was processed through the Miscellaneous cost
      account.

      b.     Basis of Contractor’s Cost:

              The process for the Christchurch New Zealand petty cash includes maintaining all
      documentation on site in New Zealand as the costs are incurred. As needed,
      replenishment requests are forwarded to the Colorado office. Replenishment is then
      granted on an as needed basis. The replenishments are originally coded to the
      Miscellaneous account on a specific WBS. A reclassification of those costs occurs when
      journal entries are sent to Colorado for recording costs to cost objectives. Included in the
      journal entry are the New Zealand dollars incurred and the applicable exchange rates.
      The original ODC amounts recorded are not only ODC costs but all costs including
      subcontract, material and labor costs. Since these elements are recorded through the
      Miscellaneous account they became part of the population for petty cash related ODC
      and were tested accordingly.

      c. Audit      Evaluation:

               The high volume of petty cash transactions prompted the contractor to request
      that we use two (2) complete months of transactions as our statistical sample in an effort
      to facilitate the transaction testing process. As a result, it was agreed to by the contractor,
      that the 2-month sample would be projected to the universe of Christchurch petty cash
      transactions for each fiscal year (2000-2002). On that basis, two (2) journal entries of
      petty cash transactions representing the months of April 2002 and November 2002 were
      selected for review. The journal entries were received from the contractor and were
      reviewed 100%. We projected the sample results to the FY 2002 universe of
      resulting in total questioned costs of

                                                17
Audit Report No. 6161-2002P10100001                                             SCHEDULE A-4

             The results of our sample of two (2) months of transactions/journal entries are as
      follows:

              Description                                            Questioned

                     Lodging – military personnel                                    (1)
              Pre-season         social:
                     Alcohol                                                   (2)
                        Flowers                                                      (2)
                     Ice Sculpture                                             (2)
                     Music                                                     (2)
                     Signs                                                     (2)
                     Convention      center                                    (2)
                     Tax payments/late penalties                                     (3)
              Business        cards/stationary                                       (4)
                     Consultation, pizza, etc.                                       (5)
                     Electronics, camera, etc.                                       (6)
                     Transport license service                                       (7)
                     Health & safety awards                                          (8)
                     GM HR recruiting                                                (9)
                     GM HR recruiting                                                (10)
              Em        ployee morale                                                (11)
                     NZ Internal Revenue                                             (12)
              Personal        clothing                                               (13)
                     Maintenance of generators                                       (14)
              Newspaper          subscription                                        (15)
              Recordation         error                                              (16)

             (1)   We questioned costs for lodging provided for military personnel for not only
                   U.S. Armed forces but also New Zealand Defense forces. These costs are
                   for lodging at hotels such as Sudima Hotel Grand Chancellor, Quality Hotel
                   Commodore, Airways Motel, and so forth. FAR 31.205-46(a)(7) states that,
                   costs shall be allowable only if the date and place, purpose of the trip, and
                   so forth are included on the supporting documentation. The supporting
                   documentation provided was not sufficient for us to determine the purpose
                   of the trips, the nature of the business, or the relationship to the contractor or
                   the Polar Services contract. The verification of reimbursement by the U.S.
                   and New Zealand Departments of Defense for these costs could not be
                   verified.
                   Questioned costs for the two (2) journal entries that makeup the total
                   lodging costs are as follows:
                                               18
Audit Report No. 6161-2002P10100001                                         SCHEDULE A-4


             Journal        Entry NZ          Dollars US             Dollars

             0402-200
             1102-200

             Totals

            (2)   Several transactions were questioned regarding a pre-season social.
                  Although the function was held for NSF and Raytheon, FAR 31.201-6 states
                  that “costs that are expressly unallowable or mutually agreed to be
                  unallowable, including mutually agreed to be unallowable directly
                  associated costs, shall be identified and excluded from any billing, claim, or
                  proposal applicable to a government contract.” Any costs or revenues of an
                  expressly unallowable nature are required to be accounted for separate and
                  distinct from contract costs. According to FAR 31.205-14 Entertainment
                  costs, “costs of amusement diversions, social activities, and any directly
                  associated costs…are unallowable. Costs made unallowable under this cost
                  principle are not allowable under any other cost principle.” Also, FAR
                  31.205-51 disallows all cost for alcoholic beverages. These expressly
                  unallowable costs are subject to penalties.

                  The questioned costs related to petty cash journal entry 1102-200 for the
                  pre-season social are as follows:

                  •    Wine for the pre-season social was purchased from
                              on Invoice No. 129748 dated September 26, 2002 in the amount
                       of NZ           . The questioned amount is

                  •    Flowers for the pre-season social were purchased from
                       (2000) Ltd on Invoice No. 21154 dated September 28, 2002 in the
                       amount of NZ             . The questioned amount is

                  •    The ice sculpture for the pre-season social was purchased from
                               on Invoice No. 54550 dated September 30, 2002 for NZ
                       The questioned amount is        .

                  •    Music for the pre-season function was billed by The               on
                       June 10, 2002 in the amount of         . The questioned dollar amount
                       is $302.

                                             19
Audit Report No. 6161-2002P10100001                                          SCHEDULE A-4

                  •   Signs for the pre-season function were invoiced by                  on
                      Invoice No. 61 for           . The questioned dollar amount is           .

                  •   On journal entry 0402-200, an invoice from NCC New Zealand was
                      billed as a deposit for a convention center for the pre-season function.
                      The invoice amount was for              and the questioned amount is
                      $415.

            (3)   We questioned              related to tax payments and late penalties paid to
                  the New Zealand Internal Revenue Department made on behalf of employee
                  John Sherve. The entries consisted of one for               and the other for
                               . These transactions were recorded and paid based on internal
                  e-mails within the Polar Services organization. The documentation is
                  insufficient and penalties for lack of payment are expressly unallowable
                  based on FAR 31.205-15. The FAR clause states that, “costs of fines and
                  penalties resulting from violations of, or failure of the contractor to comply
                  with Federal, State, Local, or foreign laws and regulations, are unallowable
                  except when incurred as a result of compliance with specific terms and
                  conditions of the contract or written instructions from the contracting
                  officer.” These expressly unallowable costs are subject to penalties.

            (4)   We questioned           of costs related to the purchase of business cards and
                  stationary for military personnel. The cost was for 500 business cards each
                  for two (2) military members,                                      , and 2,000
                  sheets of stationary on American letterhead. These costs are not reasonable
                  based on FAR 31.201-3 since they are for military personnel nor allocable
                  based on FAR 31.201-4 as the direct relationship to the contract is not
                  defined.

            (5)   Costs were reimbursed for an invoice from                               . The
                  fees of           were related to additional consultation and telephone calls
                  to the USA. The employee’s name on the receipt was                   but the
                  relation to the contract was not defined. The questioned costs totaled
                         . Adequate documentation must be provided to support the claimed
                  costs based on FAR 31.201-2(d). Credit card statement was provided for
                  two (2) transactions on journal entry 0402-200. The amounts reviewed were
                  NZ              $63.60 and NZ $242.20. The NZ $63.60 represents
                  employee morale          . and               . The           represents
                  employee morale related to the “procurement” of pizza for a farewell tea.
                  These costs are expressly unallowable based on FAR 31.205-13 and resulted
                  in questioned costs of      . The second item was for a purchase at Carters.
                                             20
Audit Report No. 6161-2002P10100001                                         SCHEDULE A-4

                  A credit card receipt was provided which is inadequate documentation
                  based on FAR        31.201-2(d) resulting in questioned costs of   .


            (6)   A credit card statement was provided for four (4) transactions but the
                  supporting documentation was inadequate. Although there were receipts for
                  the claimed costs, the relevance to the contract was not specified. The total
                  questioned costs were $77 for this credit card receipt as summarized below:

   Description                  NZ                    Dollars US     Dollars




   Totals

            (7)   An e-mail message regarding Transport Service License was submitted for
                  reimbursement of         . While it describes the various charges, it is
                  insufficient documentation for the payment of funds. The requirement
                  under FAR 31.201-2(d) dictates that “a contractor is responsible for
                  accounting for costs appropriately and for maintaining records, including
                  supporting documentation, adequate to demonstrate that costs claimed have
                  been incurred, are allocable to the contract, and comply with applicable cost
                  principles…” The questioned amount is           .

            (8)   An e-mail message and receipts were submitted for reimbursement for
                  health and safety awards consisting of gift certificates from local businesses
                  to include McEwings Sports, Valentino, SPA at Heritage, Kathmandu, Sala
                  Sala, Dux Lux, and Strawberry Fare. The purpose or achievement,
                  recipients, or other documentation were not provided. Only a list of the gift
                  certificates to be purchased in an e-mail was provided for supporting
                  documentation. FAR 31.201-2(d) requires that “a contractor is responsible
                  for accounting for costs appropriately and for maintaining records, including
                  supporting documentation, adequate to demonstrate that costs claimed have
                  been incurred, are allocable to the contract, and comply with applicable cost
                  principles…” the charge was for two (2) items of            each resulting in
                  questioned costs of $878.
            (9)   The contractor claimed costs for a                     – Orientation held at
                  the Sudima Hotel Grand Chancellor from 9/24/2002 to 9/29/2002. The only
                  supporting documentation provided was Invoice No. 273301 from the Grand
                                             21
Audit Report No. 6161-2002P10100001                                        SCHEDULE A-4

                 Chancellor. The itinerary, attendees, and other such documentation were
                 not provided. The invoice alone does not satisfy the requirements for
                 documentation under FAR 31.201-2(d). The invoiced amount was NZ
                       . The resulting questioned costs are $494.

            (10) The contractor claimed costs for a GM HR Recruiting – Orientation held at
                 the                                   from 9/30/2002 to 10/03/2002. The
                 only supporting documentation provided was Invoice No. 274468 from the
                 Grand Chancellor. The itinerary, attendees, and other such documentation
                 were not provided. The invoice alone does not satisfy the requirements for
                 documentation required by FAR 31.201-2(d). The invoiced amount was NZ
                       . The resulting questioned costs are      .

            (11) The contractor claimed costs for ice cream in the amount of               .
                 The only documentation provided was an invoice from                  for the
                 purchase of 12                   . The invoice alone does not satisfy the
                 requirements for documentation in FAR 31.201-2(d). In fact, the nature of
                 the expense suggests the claimed costs are expressly unallowable based on
                 FAR 31.205-13, Employee morale. These expressly unallowable costs are
                 subject to penalties. The questioned amount was        .

            (12) The contractor provided an e-mail as support for a payment to the New
                 Zealand Internal Revenue Department (IRD). The e-mail does not state the
                 purpose for the payment or evidence that the payment was actually made.
                 The e-mail request for funds does not satisfy the requirements for
                 documentation in FAR 31.201-2(d). The                charge resulted in
                 questioned costs of       .

            (13) The contractor submitted as claimed costs clothing repair that was not
                 identifiable with the prime contract requirements. The clothing repair was
                 included with laundry items that were identifiable. Personal items are not
                 an allowable contract cost. The New Zealand charges for this charge were
                 NZ         resulting in a questioned amount of       .

            (14) The contractor claimed costs related to maintenance of generators on
                 invoice 27500-1 from                                    . The invoice stated
                 services related to a generator at                     . This is not
                 considered a reasonable costs based on FAR 31.201-3(b)1 as it is not the
                 type of cost generally recognized as ordinary and necessary for the conduct
                 of the contractor’s business or contract performance. The charge was for
                 NZ         resulting in questioned costs of      .
                                            22
Audit Report No. 6161-2002P10100001                                            SCHEDULE A-4


              (15) Costs of      were incurred for a local paper subscription. The relevance and
                   or purpose of the costs in relation to the contract are not determinable. This
                   is not considered a reasonable costs based on FAR 31.201-3(b)1 as it is not
                   the type of cost generally recognized as ordinary and necessary for the
                   conduct of the contractor’s business or contract performance.

              (16) The Telecom custom bill dated 1 October 2002 was incorrectly recorded in
                   the contractor’s general ledger. The charge for      recorded to 07AH
                   was booked as         and should have been booked as       . The
                   difference of       is questioned.

3. Travel

       a.     Summary of Conclusions:

              The contractor claimed      of travel costs. We questioned             related to
       unallowable costs based on FAR 31.201-3.

       b.     Basis of Contractor’s Cost:

               The claimed costs are based on the contractor’s SAP system direct travel accounts
       as follows:

                        521020         Travel - Direct Airfare
                        521021         Travel – Transportation
                        521022         Travel – Meals
                        521023         Travel – Lodging
                        521024         Travel – Other
                        521025         Travel - Taxable Per-Diem

               The process for the Christchurch New Zealand petty cash includes maintaining all
       documentation on site in New Zealand as the costs are incurred. As needed,
       replenishment requests are forwarded to the Colorado office. Replenishment is then
       granted on an as needed basis. The replenishments are originally coded to the
       Miscellaneous account on a specific WBS. A reclassification of those costs occurs when
       journal entries are sent to Colorado for recording costs to the appropriate cost objectives.
       Included in the journal entry are the New Zealand dollars incurred and the applicable
       exchange rates. The original ODC amounts recorded are not only ODC costs but all
       costs including subcontract, material and labor costs. Since these items are recorded

                                                23
Audit Report No. 6161-2002P10100001                                            SCHEDULE A-4

       through the Miscellaneous account they became part of the population for petty cash
       related ODCs and were tested accordingly.

       c. Audit        Evaluation:

               We selected a random sample of direct travel accounts and reviewed the
       transactions for allowability, allocability, and reasonableness. We determined pro-card
       transaction 100579936 represented a purchase of 21,000 customized soft vinyl luggage
       tags with the Polar Logo and information. An employee of the contractor provided an
       explanation of the transaction and samples of the tags that were purchased. The tags are
       changed from year to year to display the current Polar season and to change the color.
       The invoice was from                                 however the sample item was for a
       portion of that at      . World travel has a picture of the Polar tags on its website as an
       example. The questioned amount was projected to the universe resulting in the total
       questioned costs of        . FAR 31.201-3(a) states that, “a cost is reasonable if, in its
       nature and amount, it does not exceed that which would be incurred by a prudent person
       in the conduct of competitive business.”

4. Training

       a.     Summary of Conclusions:

               The contractor claimed        of direct training costs. We questioned
       related to unallowable training based on FAR 31.205-44 and costs which were
       unsupported according to FAR 32.201-2(d).

       b.     Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.

       c. Audit        Evaluation:

               A random sample of training cost transactions were reviewed for allowability,
       allocability, and reasonableness. We projected the sample results to universe which
       resulted in total questioned costs of     .

              Our sample results are summarized as follows:

                  Description                                       Questioned

                                                24
Audit Report No. 6161-2002P10100001                                        SCHEDULE A-4

                  Em       broidered hats                                    (1)
                       Increased payment                                     (2)
                  Unsupported        costs                                   (3)

                  Total

              (1) Document 100591332 represented the purchase of 600 embroidered hats
       from                               on invoice 12652 for the amount of      . The only
       supporting documentation for the transaction was the check request and an invoice. We
       do not believe these costs are allowable training as defined in FAR 31.205-44.

              (2) Document 100336538 represented a worker/supervisor course for Michael
       Johnson in the amount of         provided by Environmental Training & Consulting.
       Invoice No. 4361a was for the amount of          but was approved for        with no
       documentation to supporting the increased payment. According to FAR 32.201-2(d), the
       contractor is responsible for maintaining records, including supporting documentation,
       adequate to demonstrate that costs claimed have been incurred, are allocable to the
       contract, and comply with applicable cost principles.

              (3) The following transactions related to training were reviewed and questioned
       because the contractor did not provide adequate documentation to support the claimed
       costs:

Alternate
       Docum                      ent No. Docum        ent No. Am   ount

        100504186                             2010200654
        100630503                             100066177
        100718216                             110216514

        Total




5. Professional        Services

       a.         Summary of Conclusions:



                                                  25
Audit Report No. 6161-2002P10100001                                            SCHEDULE A-4

                 The contractor claimed         of professional services costs. We reclassified
                 of these costs because they should have been recorded as subcontract costs.

       b.        Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.

       c. Audit        Evaluation:

               Due to a small population size, we judgmentally selected the top twelve (12)
       transactions which represent about 80% of the total dollar value of the population. The
       invoices associated with the transactions were then reviewed for allowability,
       allocability, and reasonableness of costs. A total of        related to professional
       services costs was reviewed. We reclassified          because these costs should have
       been recorded as subcontract costs. See Schedule A-3, Note 1 of this report for further
       discussion. We took no exception to the remainder of the claimed costs.

6. Subcontract        Costs

 a.              Summary of Conclusions:

               We reclassified       of ODC to subcontracts. The contractor failed to properly
       record these ODC as subcontracts in its accounting books and records. As a result, we
       reduced the claimed ODC and increased the subcontract costs by the same amount.

       b.        Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.

       c.        Audit Evaluation:




                                                 26
Audit Report No. 6161-2002P10100001                                          SCHEDULE A-4

              We reclassified           of ODC to subcontracts. The contractor failed to properly
      record these ODC as subcontracts in its accounting books and records. See Schedule A-
      3, Note 1 of this report for further discussion.




                                              27
Audit Report No. 6161-2002P10100001                              EXHIBIT B

                                  Polar Services
                       Raytheon Technical Services Company

   STATEMENT OF CONTRACTOR’S CLAIMED INDIRECT COSTS AND RATES
                         AND RESULTS OF AUDIT
                   Polar Services Contract No. OPP-0000373
               Period January 1, 2002 through December 31, 2002


        Claimed                       Questioned        Audited Ref.
Overhead
Pool                                                            Schedule     B-1
Base
Rate

Fringe Benefits
Pool                                                            Schedule     B-2
Base

G&A
Pool                                                            Schedule     B-3
Base
Rate




                                       28
Audit Report No. 6161-2002P10100001                                           SCHEDULE B-1

              CONTRACTOR’S CLAIMED OVERHEAD POOL AND BASE COSTS
                             AND RESULTS OF AUDIT

                                          Am       ount           Amount Ref.
     Claimed Overhead Pool                                       $

     Reclassified Costs:
     Locally Incurred Costs                                                          Note 1
     Corporate & RTSC Allocations                                                    Note 2
     Total Questioned Pool Costs

     Revised Pool

     Claimed Direct Labor Base

     Reclassified Costs:
     Locally Incurred Labor Costs                                                    Note 1
     Total Questioned Base Costs

     Revised Overhead Base

EXPLANATORY NOTES:

1.       Locally Incurred Costs

         a.      Summary of Conclusions:

                 Our examination of locally incurred overhead costs revealed that the contractor
         did not always classify indirect functions and associated costs in accordance with its
         disclosed accounting practices. Instead, the contractor recorded all local support
         (indirect) functions to the Polar Services contract as direct costs. As a result, we
         reclassified Miscellaneous ODC of             and labor costs of            to the local
         overhead pool. These costs represented a significant amount of costs that were booked
         direct to the contract using the General Management WBS (PS-X0).

         b.      Basis of Contractor’s Cost:
                 The contractor’s claimed costs are based on actual costs incurred as represented in
         its accounting books and records.

                                                 29
Audit Report No. 6161-2002P10100001                                          SCHEDULE B-1


c.           Audit Evaluation:

              The overhead pool was reviewed based on costs incurred and submitted in the
      contractor’s incurred cost submission. Due to immateriality of the costs actually
      included in the overhead pool, no substantive testing was considered necessary or
      performed. We did note that the overhead pool costs appeared to be insignificant for a
      contract the size of the Polar Services contract. As a result, the contract and the original
      proposal were reviewed to determine contract requirements for support functions during
      the term of the contract. The contractor’s disclosure statement (disclosed accounting
      practices) was also reviewed for the treatment of costs regarding the functions as
      described. According to the contract, the contractor is required to follow its disclosed
      accounting practices. NSF RFP No. OPP98001, Amendment No. 8 required the
      contractor’s cost or pricing data to follow its Cost Accounting Standards Board
      Disclosure Statement (Form CASB DS-1). We confirmed that the contractor was
      recording all local support functions to the Polar Services contract as direct costs. The
      WBS listing was then reviewed to determine the various support functions that were
      indirect to the program. The significant support functions reviewed that were indirect to
      the program were                                                            .

              Our reclassification of labor costs to the local overhead pool is discussed in
      further detail in Schedule A-1, Note 1of this report. Our reclassification of the
      Miscellaneous ODC is discussed in further detail in Schedule A-4, Note 1 of this report.

 d.          Contractor’s Reaction:

              The contractor does not agree that the locally incurred costs should be reclassified
      or disallowed. First, the contractor contends the parties expressly agreed that all locally
      incurred costs at Polar would be charged as direct costs to the General Management WBS
      and that they would not be subject to the overhead ceiling rate. Second, the Polar
      contract, not the WBS, is the final cost objective based on the CASB definition of a final
      cost objective. Individual tasks and CLINs under a contract do not necessarily represent
      final cost objectives nor is a contractor required to treat them as such for cost accounting
      purposes. Third, the contractor asserts that it is entitled to decide what a final
      accumulation point is in its accounting system. In the RTSC accumulation system, the
      Polar contract is the final cost objective according to the contractor.

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.
                                               30
Audit Report No. 6161-2002P10100001                                       SCHEDULE B-1

e.           Auditor’s Comments:

              CAS 418-40(a) requires Polar Services to have a written statement of accounting
      policies and practices for classifying costs as direct and indirect and to apply those
      policies and practices consistently.




              The Polar RFP required the contractor’s cost or pricing data to follow its
      disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
      (procurement) did not require any costs normally classified as indirect (e.g., locally
      incurred overhead, Raytheon allocations or RTSC allocations) to be treated as direct
      costs to the contract. The Polar RFP and its requirement for the contractor to follow
      disclosed cost accounting practices is consistent with the intent of the CASB when it
      published comments regarding this issue in Part II, Preambles to the Related Rules and
      Regulations Published by the Cost Accounting Standards Board, Preambles to Part 331,
      Contract Coverage, Comment No. 11, Additional requirements by agencies, states that:

                    “…concern was expressed that Federal agencies might require the
             submission of cost proposals in ways inconsistent with the cost accounting
             practices of some or all of the potential offerors. The Board recognizes that this
             has happened in the past, but it notes that Board rules, regulations, and Cost
             Accounting Standards are to be used by relevant Federal agencies as well as by
             contractors and subcontractors, and it believes that henceforth requests for
             proposals must be fully consistent with such rules, regulations, and standards,
             although of course the Federal agency may ask for supplementary information to
             accompany proposals if this is needed to meet the agency’s requirements.”



                        . Specifically, Polar Services classified some normally indirect
      expenses
                                    as direct expenses. As a result, the NSF Contracting
      Officer requested the NSF OIG to review the basis for these classifications by Polar
                                             31
Audit Report No. 6161-2002P10100001                                        SCHEDULE B-1

      Services and advise if the proposed allocations are consistent with applicable RTSC
      disclosure statement(s) and otherwise represent allowable, allocable, and reasonable costs
      of contract performance.

              Lastly, we believe that the Polar Services contract has multiple final cost
      objectives in the form of Work Breakdown Structures (WBS) based on the following:

              (1) The contract has determined that the WBS is the final cost objective. There
      is a number of Restricted WBS such as SPSM, SPSE, JSOC, IS Infrastructure, MTRS,
      CTBT, ANSMET II, and IceCube that require the contractor to separately accumulate,
      report, and bill costs to NSF. For each WBS, the contractor even tracks and reports by:
      obligated, advances, expenditures, available funds, and unliquidated advances in its
      financial reports to NSF.

               (2) The contractor has determined that the WBS is the final cost objective and
      one of the final accumulation points. The CASB definition of a final cost objective
      states, “Final cost objective means a cost objective which has allocated to it both direct
      and indirect costs, and in the contractor’s accumulation system, is one of the final
      accumulation points.” The contractor’s accounting system segregates, accumulates, and
      bills costs by WBS which includes both direct and indirect costs as required by the
      CASB definition of a final cost objective. Also, the contractor seems to imply that a
      contract is always the final cost objective. We disagree with the contractor because
      contracts may require task orders/delivery orders which will become the final cost
      objectives. In this case, a contractor typically segregates and accumulates its costs by
      task and/or delivery order and separately closes out each of these contracting actions
      instead of the contract as a whole. In addition, these task and/or delivery orders have
      their own ceiling amounts and the contractor is responsible for complying with those
      separate ceilings instead of any overall contract ceiling amount.

              (3) The contractor applies a      G&A rate to the base costs of each WBS for
      reporting and billing costs to NSF. As a result, the WBS has to be the final cost objective
      because CAS 410 requires that G&A expenses can only be allocated to final cost
      objectives. According to 48 CFR 9904.410-40(a), the basic requirement of CAS 410 is
      that G&A expenses be grouped into a separate indirect cost pool and allocated only to
      final cost objectives.

             In summary, we believe the contractor is in noncompliance with CAS 418-40(a)
      and has not followed its disclosed accounting practices which is a requirement of that
      standard.
                                              32
Audit Report No. 6161-2002P10100001                                         SCHEDULE B-1


2.    Corporate and RTSC Allocations

      a.     Summary of Conclusions:

             Our examination of the overhead pool for allocated costs from RTSC and
      Raytheon Corporate resulted in an increase in the overhead pool by            with a
      proportionate decrease in ODC. The contractor’s disclosed accounting practice


                                                                            .

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c. Audit      Evaluation:

             Polar Services demonstrated, through a prepared schedule and Annual Program
      Plan Cost Structure, the methodology used when recording allocated costs from
      Raytheon Corporate and Raytheon Technical Services (RTSC). Understanding the
      contractor’s methodology and classification of costs direct vs. indirect is important since
      the contract includes a   overhead ceiling rate.

             It was determined that Polar Services was recording allocations direct to the
      contract using the General Management WBS.




                                  .

              Our reclassification of the RTSC and Corporate allocations to the local overhead
      pool is discussed in further detail in Schedule A-4, Note 1 of this report. The FY 2002
      allocations that we reclassified to the local overhead pool are shown below:

                                               33
Page 34 has been Redacted
Audit Report No. 6161-2002P10100001                                         SCHEDULE B-1



      d. Contractor’s      Response:

             The contractor asserts that the Polar business unit was not organized as a separate,
      stand-alone operation. As a result, Polar has in effect purchased certain systems and
      support services from RTSC and Raytheon (Corporate) and charged the costs for these
      systems and services to the Polar contract in the form of cost allocations.            ,




      e. Auditor’s      Comments:

             The contractor judgmentally selected certain RTSC and Corporate allocations
      (flow-down costs) to charge direct to the Polar contract while others remained indirect.

                                                                                                for
                                                . We reclassified to the overhead pool all flow
      down costs to the Polar business unit that the contractor elected to charge direct to the
      contract. We are not aware of any other business units that judgmentally select certain
      allocations and charge the associated costs direct to the contract. See Note 1 above for
      additional auditor comments on the contractor’s response to our audit findings.




                                               35
Audit Report No. 6161-2002P10100001                                        SCHEDULE B-2

               CONTRACTOR’S CLAIMED FRINGE BENEFIT COSTS
                        AND RESULTS OF AUDIT

       Union     Audited                           Audited       Claimed    Questioned
       Code       Rate Labor          Base         Fringe         Fringe      Costs
                                                                             (Note 1)




                                                             -




EXPLANATORY NOTE:

1.    Corporate and RTSC Allocations

      a.     Summary of Conclusions:

             Questioned cost results from the application of recommended/audited rates to the
      applicable fringe codes for Polar Services.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.




                                              36
Audit Report No. 6161-2002P10100001                                        SCHEDULE B-2



      c. Audit      Evaluation:

              RTSC fringe costs are claimed in total in the RTSC 2002 incurred cost
      submission. In an effort to confirm the total claimed, the labor costs have been
      segregated based on the applicable fringe bases. The RTSC audited fringe rates by union
      code for fiscal year 2002 were then applied to the associated labor bases and totaled for a
      total audited fringe burden of             . The total applied fringe was then compared to
      the claimed fringe from the contractor’s incurred cost submissions for the same time
      frame of             resulting in an over application of claimed fringe costs of         .




                                              37
Audit Report No. 6161-2002P10100001                                         SCHEDULE B-3

                  CONTRACTOR’S CLAIMED G&A POOL/BASE COSTS
                           AND RESULTS OF AUDIT

Description Amount                                                 Ref.
(Note                                                         1)
 Reclassified Subcontracts                                                Schedule A-3, Note 1
 Fringe Benefits in Excess of Claimed Rates                                  Schedule B-2

 G&A Base Adjustment

EXPLANATORY NOTE:

1. G&A       Expense

       a.     Summary of Conclusions:

              We do not take any exception to the contractor’s claimed G&A pool. However,
       we adjusted the contractor’s claimed G&A base by              .

       b.     Basis of Contractor’s Cost:

               The contractor’s claimed costs are based on actual costs incurred as represented in
       its accounting books and records.

       c. Audit      Evaluation:

               We did not perform any transaction testing on the claimed G&A pool because of
       the immaterial costs included in that pool and the ceiling rate included in the contract.
       However, we adjusted the contractor’s claimed G&A base in the amount of
       as a result of our audit findings related to fringe benefits and reclassified subcontracts.
       All other questioned costs are subject to G&A burden regardless of their allowability.




                                               38
Audit Report No. 6161-2002P10100001                                              EXHIBIT C

                                     Polar Services
                          Raytheon Technical Services Company

    SCHEDULE OF UNALLOWABLE COSTS SUBJECT TO PENALTY (NOTE 1)
                   Polar Services Contract No. OPP-0000373
               Period January 1, 2002 through December 31, 2002

                                                   Amount Subject to FAR 42.709
 Description Questioned                             Costs Ref.

                                                                   Schedule A-3, Note 1
                                                                 Schedule A-4, Note 2c(2)
                                                                 Schedule A-4, Note 2c(2)
                                                                 Schedule A-4, Note 2c(2)
                                                                 Schedule A-4, Note 2c(2)
                                                                 Schedule A-4, Note 2c(2)
                                                                 Schedule A-4, Note 2c(2)
                                                                 Schedule A-4, Note 2c(3)
                                                                 Schedule A-4, Note 2c(11)

 Total


Note 1: Questioned costs are subject to the Level One penalty.




                                             39
 Audit Report No. 6161-2002P10100001                                             EXHIBIT D

                                      Polar Services
                           Raytheon Technical Services Company

      OVERHEAD AND G&A COSTS IN EXCESS OF CONTRACT RATE CEILINGS
                     Polar Services Contract No. OPP-0000373
                 Period January 1, 2002 through December 31, 2002

                                 Charts have been Redacted




G&A


 EXPLANATORY NOTES:

 1.     Overhead and G&A Costs in Excess of Ceiling – Without Audit Adjustments

        a.     Summary of Conclusions:

               We computed the overhead and G&A costs in excess of the ceiling rates. These
        amounts represent the costs in excess of the ceiling rates based on the contractor’s
        claimed indirect rates and allocation bases, i.e., without any audit adjustments.
                                                 40
Audit Report No. 6161-2002P10100001                                                 EXHIBIT D



      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates but
      without including any audit adjustments. These amounts represent the costs in excess of
      the ceiling rates based on the contractor’s claimed indirect rates and allocation bases.
      Any comparison to billed costs should be performed after final negotiations and
      resolution with the contractor.

2.    Overhead and G&A Costs in Excess of Ceiling – With Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead and G&A costs in excess of the ceiling rates. These
      amounts represent the costs in excess of the ceiling rates that includes the audit
      adjustments discussed in this report.

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates that
      reflects our audit adjustments. These amounts represent the costs in excess of the ceiling
      rates based on incorporating the audit adjustments made to the contractor’s indirect cost
      pools and allocation bases. Any comparison to billed costs should be performed after
      final negotiations and resolution with the contractor.

      d. Contractor’s      Response:



                                              41
Audit Report No. 6161-2002P10100001                                               EXHIBIT D

              The contractor states that the amounts identified by DCAA as claimed over
   ceiling have not been claimed nor recovered under the contract. The costs are included in the
   actual incurred cost submission and they are charged to the contract because they are actual

       costs and they must be recorded on the books, but we are aware of no evidence that the
   costs have ever been included in any billing or otherwise claimed by Polar.

      e. Auditor’s      Comments:

              We disagree that the contractor has not billed nor recovered these over ceiling
      amounts under the contract. The contractor billed and recovered these amounts as direct
      costs as discussed in the exhibits to this report. We reclassified these direct costs
                                                                           to overhead and
      computed the amounts that exceed the contract’s ceiling rates.




                                              42
Audit Report No. 6161-2002P10100001                                            EXHIBIT E

                                    Polar Services
                       Raytheon Technical Services Company
              SCHEDULE OF CLAIMED AND QUESTIONED COSTS BY
                       WORK BREAKDOWN STRUCTURE
                      Polar Services Contract No. OPP-0000373
                  Period January 1, 2002 through December 31, 2002

 WBS Description    Claimed                                    Questioned         Difference
                                                                (Note 1)
 PS-00
 PS-01
 PS-02
 PS-03
 PS-04
 PS-05
 PS-07
 PS-08
 PS-09
 PS-20
 PS-21
 PS-22
 PS-23
 PS-24
 PS-25
 PS-27
 PS-30
 PS-31
 PS-32
 PS-33
 PS-34
 PS-35
 PS-37
 Totals
Note 1: The significant portion of questioned costs for the indirect functions and
Corporate/RTSC allocations relate to the General Management WBS and were questioned
specifically on those WBS. The subcontract questioned costs were questioned on specific WBS
according to Schedule A-3. The balance of the questioned costs were allocated to all WBS
based on costs incurred.
                                            43
Audit Report No. 6161-2002P10100001

                   CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization.

       On December 18, 1997, Raytheon announced the completion of its merger with the
Hughes Corporation and the formation of Raytheon Systems Company, a subsidiary of Raytheon
Company. Raytheon Systems Company consisted of 5 segments, including Training and
Services (T&S). Raytheon T&S segment, established January 1, 1999, combined the following
legacy organizations: Rayserv (legacy Raytheon) and Hughes Technical Services Company,
Raytheon Air Warfare Center, Raytheon STX, Raytheon Electronic Technologies Inc., Raytheon
Data Systems, and Raytheon Training Inc., Training Operations and Commercial Training
Divisions.

        On October 18, 1999, Raytheon’s T&S segment reorganized, transforming four (4)
divisions into thirteen (13) separate business units. This new organization, renamed Raytheon
Technical Services Company (RTSC), became fully operational January 3, 2000. In the new
structure, the Raytheon Systems Company (RSC) was eliminated. Accordingly, RTSC and other
Raytheon Company segments will report directly to the Corporate Executive Office. RTSC now
has its headquarters in Reston, VA,                                                           :

       1.
       2.
       3.
       4.
       5.
       6.
       7.
       8.
       9.
       10.
       11.
       12.



                                                    :

       1.
       2.
       3.


                                              44

                                FOR OFFICIAL USE ONLY
Pages 45 – 56 have been Redacted
Audit Report No. 6161-2002P10100001

                                      DCAA PERSONNEL

Telephone                                                                          No.
Primary contact(s) regarding this audit:



Other contact(s) regarding this audit report:
                       Branch Manager


                                                                             FAX No.
         Herndon Branch Office


                                                                       E-mail Address
         Herndon Branch Office

General information on audit matters is available at http://www.dcaa.mil/.

                                      RELEVANT DATES

NSF OIG Request dated July 31, 2003

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/


                                                           Branch Manager
                                                           DCAA Herndon Branch Office




                                                58
Audit Report No. 6161-2002P10100001

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION

E-m                                                               ail Address
National Science Foundation                                  Kstagner@nsf.gov
Ms. Deborah Cureton, Associate Inspector General for Audit
Associate Inspector General for Audit                         Telephone No.
4201 Wilson Boulevard                                         (303) 312-7655
Arlington, VA 22230

Polar Services
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191
(Copy furnished thru ACO)

RESTRICTIONS




                                       REDACTED




                                             59
Audit Report No. 6161-2002P10100001




                           APPENDIX 1

                         Certificate of Final Indirect Costs




                                         60
                    CERTIFICATE OF FINAl INDIRECT COSTS




ThIs fs !O eMily INt I NlW revis-<! this PfOI)OSaI !O establish li ...1indi,ect 00S1
,at... Md to the besl of "'I """"-ledge and beli,t;

    1.       AU costs included in ",il prQI>O$8l ("'Aaytt>eOn Tec!'rical Servioo.
             CoIr4>any 2002 Ove","d I'fq:losar dllted Ju ... 30. 2003) !O e stablish
             linoJ indirec! ,ateslor I.oba, 0 " , " _ . G.&A, Md lringe 10< Ii_ V_
             2002. a,e aIlOWabre in aa:ordanoe ~tTIlhe cost principle. of the
              F-...I A<;qu;sOlion ,egulation (FAR) and ils "",pplement:s owIicaba. 10
             tile oontnocts to""'<:11 the Ii.".. indif8CI 0051 rat ... wi" apply; and

    2.       Thrs proposal doe. not include a ny cools ~ are e xpreu/y
             ""allowaba. uncle< appl_ <XIS1 principtes 01 tl>e FAR 0< its
             o.upptemenl • .

Firrrt    ~"'. ."'-'
Signalu,,, ___



Tillot:
Ollie of Execotlon' _ _    --'L .1""-________
Audit Report No. 6161-2002P10100001




                           APPENDIX 2

                     Contractor’s Response to Results of Audit




                                        61
-----Original Message-----
From:                 Mr, DCAA
Sent: Wednesday, January 12, 2005 3:02 PM
To:
Subject: FW: Response to DCAA Draft Audit Report 6161-2004P10160205

xxxxxxxxx

I have attached the response received from RTSC that we need to analyze and provide comments. I will be at
RTSC next Tuesday as usual to talk about our comments to the RTSC response.




-----Original Message-----
From:
Sent: Tuesday, December 14, 2004 2:03 PM
To:                Mr, DCAA
Cc:
Subject: Response to DCAA Draft Audit Report 6161-2004P10160205




The enclosed document is in response to DCAA Draft Audit Report No. 6161-2004P10160205.




Raytheon Technical Services Co. LLC
12160 Sunrise Valley Drive, Suite 500
Reston, VA 20191
Re: Response to DCAA Draft Audit Report No. 6161-2004P10160205

        This letter is the response of Raytheon Technical Services Com pany LLC (RTSC) to DCAA
Draft Audit Report No. 6161-2004P10160205 dated August 24, 2004. In sim ple term s, the Draft
Audit Report questions the allowability of approximately $27.8 million in costs allocated to National
Science Foundation (NSF) Contract No. OPP 0000373 (the Contract) in 2000-02. The questioned
costs fall into three broad categories: 1) approxim ately $12.5 m illion in costs incurred by RTSC’s
Polar Services division (Polar) and charged as direct costs of the Contract; 2) approxim      ately
         in indirect costs in excess of the caps on overhead and G&A included in the Contract; and 3)
approximately
                                                                                      1
          . We believe that it is im portant to note at the outset that the             in unallowable
over-ceiling costs identified in the Draft Audit Report have neither been billed to NSF nor recovered
in any way and that Polar has no intention of attempting to recover those costs. We disagree with the
conclusions in the Draft Audit Report on the other two issues for the reasons stated below.

Background

         The Contract is a cost-reimbursement contract for services in support of the NSF scientific
mission in Antarctica. Polar won the contract in a com          petition conducted in 1999.     Polar’s
predecessor, Antarctic Support Services (ASA), had only one contract and charged all of its costs
direct to that contract. ASA had no indirect costs. Because it was a joint venture, its “parents” did
not allocate “hom e office” costs to ASA. When ASA needed support from its corporate parents, it
“purchased” that support and charged the costs direct to the predecessor contract. Although NSF’s
RFP for the Contract did not specifically require that all costs be charged directly to the Contract, it
was apparent that the RFP contem plated that a su ccessor contractor would have a sim ilar structure
with m inimal indirect costs. As a result, RTSC’     s proposal was designed to m inimize indirect
charging and maximize direct charging.


                                                                                                 that are
classified as indirect costs and allocated to all the contracts in that   business unit. In 1999 when
RTSC was preparing the proposal for the Contract, there were a few RTSC business units that were
stand-alone organizations, like the contemplated Polar business unit. Like ASA, those business units
charged virtually all of their costs as direct costs. Those business units were not included in the
allocation base for m ost Ray theon corporate and RTSC costs, so they had very low indirect cost
rates. RTSC’ s proposal assum ed that the Polar busin ess unit would


1
          Because the Draft Audit Reports makes changes in both the overhead pool and in the base used to allocate the
overhead pool, we do not agree with the precise am ounts calculated by DCAA for each category of costs. For example,
because DCAA has erroneously reclassified certain                           by Polar from direct costs to overhead and
because of an undetected error in the 2000 subm ission, the am ount subj ect to the overhead cap in the DCAA report is
overstated. On the other hand, we also discovered undetected errors in the incurred cost subm ission for 2002 that would
increase the am ount of overhead rendered unallowable by the cap. W hen the 2000 and 2002 submissions are corrected,
the amount of unallowable over-ceiling cost will be approximately                For clarity , we have used the am ounts in
the DCAA Draft Audit Report in this response, but those amounts are incorrect.
                                                                    RTSC did not expect that its
actual overhead and G&A expenses would exceed the contractual caps by more than           .

         NSF accepted RTSC’ s proposal and the Contract contem plates that
normally charged as indirect costs would be charged directly to the Contract. In accordance with its
                         and the term s of the Contract, the Polar business unit has consistently
classified all costs incurred in the Polar business unit as direct costs. In fact, NSF directed that Polar
charge the locally incurred management costs for Polar to the General Managem ent CLIN in the
Contract and Polar has complied with that direction.

         After the Contract was awarded to Polar late in 1999, ASA protested the award. Polar began
performance of the Contract shortly after award, but the protest continued for much of 2000. The
protest and uncertainty about the validity of the Contract created some confusion during 2000. The
initial award was for a period of five y ears, with an option for another five years. NSF has exercised
that option and the Contract is currently expected to extend until 2010.


                                                                                  . As a result, the
costs allocated to the Contract from     Raytheon and RTSC substantially exceeded the
overhead cap included in the Contract. Because NSF directed that Polar use the ASA Annual
Program Plan (APP) to report its costs at the outset of the Contract in early 2000 and because Polar
complied with that direction,



        After considering various alternatives in early 2001, RTSC decided that som e of the costs
being allocated to Polar by Ray theon and RTSC were, in fact, replacing costs that RTSC had
expected to incur locally at Polar and charge direct to the Contract. Polar decided to reclassify some
of the costs allocated by RTSC and Ray theon as other direct costs (ODCs) and to charge those costs
directly to the Contract rather than including them as overhead costs subject to the                   in
the Contract. Polar notified NSF of that decision in a letter dated April 16, 2001, and identified the
types of cost that had been classified as ODCs in that letter. In response to that letter, NSF told Polar
that the allowability of its ODCs would be determined after the costs had been audited. The Draft
Audit Report, prepared over three y        ears thereafter, is the first tim   e that any Governm ent
representative has objected to the approach adopted by Polar in 2001. Polar appreciates this
opportunity to explain the rationale for its classification of the costs as ODCs.

         Polar did not classify as ODCs any costs allocated to the Contract as G&A, nor did it classify
all of the                                                   to the Cont ract as ODCs. In fact, the total
amount that Polar has claim ed and recovered on the Contract during the initial 5-y ear term of the
Contract is approximately                        than the actual costs recorded as indirect costs on the
Contract. That                      on the Contract reflects the benefit that NSF has realized as a result
of the contractual caps on G&A and overhead.

        We now turn to the issues raised in the Draft Audit Report.


        We do not believe that DCAA was privy to the contractual agreem ent reached by the parties,
so DCAA may not appreciate the connection between that agreement and the disclosed and approved
practice used by Polar to implement that agreement. The parties clearly and explicitly agreed that all
                    costs would be charged as direct costs on the Contract, including costs that would
normally be indirect. In discussions after award, NSF instructed Polar to charge norm ally indirect
costs to the                                 a nd Polar has com plied with that instruction.   RTSC’s
disclosed practice was and is that
                                                             . Because the parties had specifically
agreed that the costs at issue would be charged direct, there was and is a contractual requirement to
charge them direct. In addition, RTSC’ s disclosed practice
                                                            The costs at issue exclusively benefit and
are identified to the Polar contract. Accordingly , Polar has complied with the requirements of the
Contract, the instructions of its customer, and                                    .

                                       makes sense in a situation like this where there is only     one
contract in the business unit and where all                         will ultim ately be charged to that
contract, whether charged directly or indirectly.

        The DCAA Draft Audit Report asserts that Polar m ay not charge the costs at issue directly to
the Contract because there are m ultiple “ final co st objectives” within the Contract. Under this
interpretation, because the Contract has m ultiple final cost objectives, Polar is required to collect its
normally indirect costs in an overhead pool and allocate those costs as overhead to the various final
cost objectives within the Contract. The effect of the DCAA position is to include
                            in the costs                                    .

       There are at least three fundamental problems with this position. First, and most important, it
is completely inconsistent with the understanding of the parties and the requirem ents of the Contract.
The   parties   expressly agreed that all

    . Even if DCAA were correct about the existence of m ultiple final cost objectives, the assertion
that the costs at issue should be subject to the overhead cap would be inconsistent with the parties’
express and clear agreement.

        The second problem with the DCAA position is that the Contract is a single final cost
objective. The term “final cost objective” is defined in the CAS regulations as follows:
   Final cost objective means a cost objective which has allocated to it both direct and indirect
   costs, and in the contractor’s accumulation system is one of the final accumulation points.
48 C.F.R. § 9904.402-30(a)(4). Under that definition, the contractor is entitled to decide what is a
final accumulation point in its system. In RTSC’s accumulation system, the Contract is the final cost
objective.


         In most circumstances, contracts are final cost objectives. While we agree with DCAA that
there are circum stances in which a single contract could encompass multiple final cost objectives,
this is clearly not one of them. In our experience, contracts that include multiple final cost objectives
are contracts that cover two or more distinct and disparate activities, such as production of goods and
a separate design task to develop a variant      of that product.



        Finally, the parties intended and expressly agreed that the                     identified as
unallowable indirect costs would be charged direct to the contract. There is no basis to disallow that
direct cost.


Costs in Excess of the Indirect Cost Caps


         The Draft Audit Report also identifies as unallowable and               “claimed over ceiling”
approximately                  in costs that have been allocated to the Contract. We agree with DCAA
that the costs at issue are not allowable. We also agree that the costs have been         allocated to the
Contract, as is required by the relevant regulations and by                                       , but we
disagree that they have been “ claimed” and they certainly have not been recovered. The costs are
included in the actual incurred cost submission and they are charged to the Contract on Polar’s books
of account because they are actual costs and they must be recorded on the books, but we are aware of
no evidence that the costs have ever been included in any billing or otherwise “claimed” by Polar.
Polar has no intention of claiming or attempting to recover those costs. While the Draft Audit Report
is correct that the costs are unallowable, it fails to acknowledge that Polar has treated them          as
unallowable. Moreover, by labeling the costs as “ claimed” the Draft Audit Report creates the
erroneous impression that Polar has som ehow tried to recover the costs. There is no issue about
these costs and the final Audit Report should acknowledge that fact.
        RTSC made a deal with NSF about the unallowability of indirect costs in excess of the caps
included in the Contract. Polar has lived up to that deal and is not com plaining about the im pact of
the caps on indirect costs as they were reasonably anticipated when the caps were proposed and
negotiated. What we disagree with is the application of the caps to                          that were
expressly excluded from the application of the caps in RTSC’ s proposal, discussed in the section
above, and application of the caps to costs that RTSC anticipated incurring locally , discussed in the
next section.

Other Direct Costs

        The final category of costs addressed in the Draft Audit Report raises      more complicated
issues, but it is equally without m erit. The principal reason that we requested additional tim e to
respond to the Draft Audit Report was because we wanted to be sure that we understood the issues
related to ODCs and were com fortable with the Com pany’s position on those issues. We retained
outside counsel and a major accounting firm to review the Company’s position. Their review is now
substantially complete and they have concluded that the Company’s position reflects a fair attempt to
implement the original intent of the Contract in light of the   way that circumstances have changed
since award.

       As explained above, the proposal for the Contract and the rate caps in the contract were based
on express assumptions about the nature of the costs that would be included in the capped overhead
rates.


                                                                . The cost proposal for the Contract
originally assumed that there would be similar arrangements for the Polar business unit and that such
costs would be incurred locally and charged directly to the Contract, as provided in the Contract and
in RTSC’s Disclosure Statement.


            As a result, Polar has in effect purchased certain sy stems and support services from
                                                                                                 . As a
result, many types of cost that RTSC expected to                                and charge direct to the
Contract have instead been charged as                                               . If those
             treated as overhead, they cause the actual overhead costs to exceed the capped rates in a
way that we do not believe either party anticipated or intended. When Polar realized late in 2000
what had happened, it reviewed the various options available to it and decided that the best way to
implement the parties’ intent would be to reclassify appropriate overhead costs as ODCs, charged
directly to the contract as the parties expected and intended.


        It is important to note that Polar did not reclassify any                                  , even
though the actual             has substantially exceeded the capped rate of               Nor has Polar
reclassified all of the overhead costs in excess of the capped rates. Even after the reclassification of
some overhead costs, the actual rates are still substantially in excess of the capped rates. NSF has
received the benefit of the corporate and RTSC sy stems and support, but it would not be required to
pay for that benefit if the costs were classified as overhead.

         In order to correct that obvious inequity and to im plement what we believe to have been the
intent of both parties, we attem pted to identify costs                                              that
were, in essence, replacements for costs that both parties had anticipated would be incurred
                                            and charged direct to the Contract. We believe that we
have reclassified costs fairly in a way that is consistent with the parties’ original intent, but we also
recognize that the reclassification involved an exercise of judgment and that reasonable people might
disagree about how that judgm ent should be exercised. We disclosed what we intended to do and
why we intended to do it fully and completely to NSF in a letter dated April 16, 2001. NSF neither
accepted nor rejected our solution to the problem          we were facing, but indicated that the
appropriateness of the reclassifications would have to be determ ined after an audit. Now, over three
years later, there has finally been an audit. We do not believe that the DCAA position that all of the
costs at issue m ust rem ain in overhead, no m atter what the parties intended or what is fair in the
circumstances, is a supportable position.

Conclusion

         The audit findings concerning                   costs and “claimed over ceiling” costs should
be withdrawn. They are demonstrably wrong. The audit finding that none of the ODCs at issue are
properly classified as direct costs we believe is also incorrect, but we recognize that the am ounts so
classified are a matter of judgment and we would be pleased to discuss them with you.
